<html>
<title> - PRIVACY VS. SECURITY: ELECTRONIC SURVEILLANCE IN THE NATION'S CAPITAL</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]





 PRIVACY VS. SECURITY: ELECTRONIC SURVEILLANCE IN THE NATION'S CAPITAL

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 22, 2002

                               __________

                           Serial No. 107-166

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


85-122              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

                Subcommittee on the District of Columbia

                CONSTANCE A. MORELLA, Maryland, Chairman
TODD RUSSELL PLATTS, Pennsylvania    ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia,               DC
------ ------                        DIANE E. WATSON, California
                                     STEPHEN F. LYNCH, Massachusetts

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                     Russell Smith, Staff Director
                 Howie Denis, Professional Staff Member
                          Matthew Batt, Clerk
                      Jon Bouker, Minority Counsel
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 22, 2002...................................     1
Statement of:
    Barnes, Johnny, executive director, American Civil Liberties 
      Union, National Capital Area; Ronald Goldstock, American 
      Bar Association; and John Woodward, Jr., RAND..............    57
    Patterson, Kathleen, chairman, Committee on the Judiciary, 
      Council of the District of Columbia; Margret Nedelkoff 
      Kellems, deputy mayor, Public Safety and Justice, District 
      of Columbia government; Charles Ramsey, chief, Metropolitan 
      Police Department, District of Columbia; and John Parsons, 
      associate regional director, National Capital Region, 
      National Service...........................................    13
Letters, statements, etc., submitted for the record by:
    Barnes, Johnny, executive director, American Civil Liberties 
      Union, National Capital Area, prepared statement of........    60
    Goldstock, Ronald, American Bar Association, prepared 
      statement of...............................................    69
    Kellems, Margret Nedelkoff, deputy mayor, Public Safety and 
      Justice, District of Columbia government, prepared 
      statement of...............................................    40
    Morella, Hon. Constance A., a Representative in Congress from 
      the State of Maryland, prepared statement of...............     4
    Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
      District of Columbia, prepared statement of................    10
    Parsons, John, associate regional director, National Capital 
      Region, National Service, prepared statement of............    33
    Patterson, Kathleen, chairman, Committee on the Judiciary, 
      Council of the District of Columbia, prepared statement of.    16
    Ramsey, Charles, chief, Metropolitan Police Department, 
      District of Columbia, prepared statement of................    24
    Woodward, John, Jr., RAND, prepared statement of.............    78

 
 PRIVACY VS. SECURITY: ELECTRONIC SURVEILLANCE IN THE NATION'S CAPITAL

                              ----------                              


                         FRIDAY, MARCH 22, 2002

                  House of Representatives,
          Subcommittee on the District of Columbia,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:05 a.m., in 
room 2154, Rayburn House Office Building, Hon. Constance A. 
Morella (chairwoman of the subcommittee) presiding.
    Present: Representatives Morella and Norton.
    Staff present: Russell Smith, staff director; Heea 
Vazirani-Fales, counsel; Matthew Batt, legislative assistant/
clerk; Robert White, communications director; Shalley Kim, 
staff assistant; Howie Denis, professional staff member 
(Davis); Jon Bouker, minority counsel; and Earley Green, 
minority assistant clerk.
    Mrs. Morella. Good morning. I am going to call the 
Subcommittee of the District of Columbia hearing to order. Our 
issue today is privacy versus security, electronic surveillance 
in the Nation's Capital. I want to welcome everybody who is 
here.
    I am going to ask that my opening comment, in its entirety, 
be included in the record because I am going to give an 
abbreviated version. Thank you. Without objection.
    We live in the video age. Police forces, including the 
Metropolitan Police Department, are increasingly employing 
video surveillance, both to deter crime and to catch criminals. 
The Metropolitan Police Department is in the process of 
establishing the most extensive surveillance network in the 
United States; a system that could ultimately include more than 
1,000 cameras, all linked to a central command station 
accessible to not only the District police but the FBI, the 
Capitol Police, the Secret Service, and other law enforcement 
agencies.
    The existence of such a network raises many questions. 
Among them, does the prevalence of cameras inhibit our privacy 
rights? Are those cameras effective in deterring or solving 
crimes? And, perhaps most urgently, who gave permission for the 
implementation of this system, and where are the policies 
governing its use?
    I believe there has been an unfortunate lack of public 
debate on these issues. Even supporters of electronic 
surveillance concede that police departments should only use 
these cameras if there is a widespread public desire for such 
technology.
    There is clearly no consensus the District of Columbia for 
or against these cameras, because the public only learned about 
their existence after they had been put in place. Citizens must 
have confidence that electronic surveillance is not going to 
infringe on their rights, including what Justice Louis Brandeis 
described as our most precious rights, the right to be left 
alone.
    We saw the dangers of moving too quickly with this 
technology when the District had its problems with the faulty 
red light cameras, and the due process issues now being raised 
regarding the speeding cameras.
    I understand the Metropolitan Police Department now has 13 
closed circuit cameras of its own linked to its joint 
operations command center, and it is working on linking the 
center to several hundred existing cameras in public schools 
and subway stations.
    There are also plans to connect the center with hundreds of 
regional natural traffic cameras. One of the biggest concerns 
that I have is that once this system is in place, it will be 
too tempting for the police not to use it to its full force. It 
is the old camel's nose story, or maybe we should say the 
camera's nose. Once the camel gets his nose under the tent, 
pretty soon the rest of the camel will be under the tent. And 
once the police have cameras that can see anywhere in the city, 
pretty soon the police will be using those cameras to look 
anywhere in the city.
    In London, a camera system initiated to combat IRA 
terrorism has sprouted into a network with an estimated 2\1/2\ 
million cameras. The average Londoner is caught on film about 
300 times a day, and no terrorists have been caught by the 
cameras' use.
    Does the Nation's Capital want to build such a system? I 
have heard Chief Ramsey say no, that this is a system designed 
to be event-specific, to be activated only during threats of 
terror or large public events. But Mayor Williams had said 
publically that the city should follow the lead of cities such 
as London which use the cameras to enhance day-to-day policing. 
The chief has said the Department will consider installing 
cameras in neighborhoods that have problems with drug markets 
and the like.
    Obviously, some guidance, maybe legislation from the Mayor 
and the Council of the District of Columbia is needed to 
establish how extensive this camera network should be and what 
safeguards are necessary to protect privacy rights.
    The policymakers must give clear direction to the police. 
Congress, too, may have to step in and ensure that this 
technology does take--does not take away our right to be left 
alone, as it has in the past when privacy concerns have become 
an issue. This is especially true given the testimony from the 
U.S. Park Service, which is planning to place cameras at the 
monuments on our National Mall.
    We have two panels today, one that will primarily focus on 
the District's own surveillance system, and one that will be 
able to broaden the discussion a little further into the 
Constitutional and legislative questions. We did invite several 
others to testify, including the Capitol Police and Justice 
Department, but they declined, saying they had no role to play 
in the discussion of the District's surveillance network. And 
the British Government doesn't let government officials testify 
before Congress, so we were unable to get someone who could 
speak with firsthand knowledge about London's experience.
    In concluding my remarks, I wanted to say that our Nation's 
Capital stands as an ultimate symbol to American freedom. Since 
taking the chairmanship of this subcommittee 15 months ago, I 
have worked with Congresswoman Norton on many issues, but 
perhaps no single one as frequently as trying to keep this city 
safe, open and accessible to the residents, businesses, and 19 
million tourists who come here each year.
    I have said before that we cannot turn the District into 
Ft. Washington. It matters not whether that fortress is built 
with an impenetrable ring of concrete barriers or with an 
unregulated network of digital cameras.
    It is now my pleasure to recognize the ranking member, 
Congresswoman Eleanor Holmes-Norton, for her opening statement.
    [The prepared statement of Hon. Constance A. Morella 
follows:]

[GRAPHIC] [TIFF OMITTED] T5122.001

[GRAPHIC] [TIFF OMITTED] T5122.002

[GRAPHIC] [TIFF OMITTED] T5122.003

    Ms. Norton. Thank you, Ms. Morella. I appreciate the 
leadership of our chair, Connie Morella, in focusing our 
subcommittee on important issues of privacy raised by security 
threats and technology that have been become a special concern 
since the September 11th attack.
    The surveillance cameras at issue were initiated before 
September 11th, however. Initially they were not used because 
of terrorist threats to security, but for law enforcement 
purposes at national events where lawlessness from 
demonstrators and others sometimes occurs.
    Thus, it seems clear that as technology becomes available, 
government, like the rest of us, gravitate toward its use. 
However, government is not like the rest of us. Government is 
not like citizens with a new toy. There are deeply felt 
cultural norms and critical constitutional limits on how public 
officials may carry out their work, even responsibilities as 
important as public safety. For Americans, where cameras that 
view residents should be placed is not merely a security issue. 
Personal privacy and the right to be left alone, especially 
from interference by government, is an identifying 
characteristic of what it means to be an American.
    Nevertheless, much of what we have focus on today is 
uncharted territory. Our subcommittee is one of the first in 
Congress to investigate surveillance cameras that are used for 
security purposes, perhaps the very first.
    Such cameras in the District present a particularly 
difficult case for arriving at the appropriate balance in a 
society like ours. As the Nation's Capital, the District is a 
presumed terrorist target. And as the use of the surveillance 
cameras here, even before September 11th, shows, the city also 
is the formal site for many national and international events 
that have the potential to generate harm to residents and 
visitors and damage to property.
    The cameras are now connected to the District's joint 
operations command center. And I want to especially commend 
council member Kathy Patterson, chair of the City Council's 
Committee on the Judiciary, for promptly calling witnesses and 
for planning further hearings concerning the surveillance 
cameras. The city's first hearing has uncovered important 
information and already is leading to remedial action.
    This subcommittee has larger Federal concerns that affect 
not only the District, but the Nation. Even the District's use 
of surveillance cameras was motivated not by District matters, 
but by security needs at national and international events. And 
already the District system is trending toward other Federal 
uses that may rapidly become significantly greater than local 
involvement.
    Initially at least five of 13 locations are to Federal 
sites. Already three more Federal agencies may be seeking 
connections. There is no way to avoid the conclusion that in 
the new era of global terrorism, the District's cameras 
surveillance system is inevitably already part and parcel of 
the Nation's homeland defense.
    As such, the surveillance is likely to be imitated in other 
locations, especially in the many jurisdictions where there is 
a Federal presence. The need to assure greater security in the 
Nation's Capital and elsewhere, especially following September 
11th, is beyond debate.
    Today, however, we will want to know more about the uses to 
which the system is being and could be put, how and when the 
system is used, its limits, its known benefits and dangers, and 
what the surveillance has accomplished so far.
    As perhaps the first such surveillance system in the 
country, there is a heavy burden on the users to set the 
appropriate example and to do it right. However, public 
officials here are caught in a dilemma not of their own making. 
Like other officials throughout the country, they are being 
asked to respond to the unknown with no precedence to guide 
them.
    I believe that it is both unfair and dangerous for the 
national government to ask local and State officials to figure 
out the plethora of complicated issues involving security, 
privacy and openness no society in the history of the world has 
had to face without any Federal guidance.
    However, the Federal Government itself faces the same 
complicated challenge, to protect the people while maintaining 
their constitutionally guaranteed rights. The example that the 
Federal Government is offering leaves much to be desired. 
Federal officials are quickly throwing up new approaches and 
systems from shutdowns, barricades and public exclusion to 
camera surveillance, wholesale round-ups and electronic 
surveillance, without regard to the Fourth Amendment or other 
constitutional protections, and without notice and public 
hearings or even any public explanation.
    Civil libertarians are right to question much about this 
response, and public officials are right to revitalize their 
responsibility to protect the public with new and increased 
seriousness.
    However, both the general public and public officials need 
more explicit guidance from the Federal Government. Yet 
Homeland Security Director, Tom Ridge, has all he can do simply 
to catch up to an increasing set of new demands created by 
September 11th, most of them just beginning to take on the 
basics, such as calibrated alerts, and the security safeguards 
that are necessary to fully reopen National Airport.
    Because both the local and Federal Governments face the 
same dilemma, it is particularly unjustifiable that nearly all 
of the Federal officials invited to testify today have 
declined. They are the Office of Homeland Security, the 
Department of Justice, the Federal Bureau of Investigation, the 
Capitol Police, and the U.S. Secret Service, particularly since 
most of the new security needs or requirements are Federal in 
origin.
    The least that Congress is entitled to is the kind of 
testimony that can be presented without injury to national 
security. When even that testimony is withheld, complaints from 
administration agencies concerning any legislation that results 
will be unavailing. I believe that a more cooperative and 
forthright approach that faces these dilemmas head-on together 
trying to find solutions is what is needed to help sort out the 
conundrum of at once opening the society and closing down 
terrorism.
    I will shortly be introducing the Open Society With 
Security Act, along with a Senate sponsor. The bill would 
authorize a Presidential commission to bring together the best 
minds in the society to investigate how our country can meet 
the high standards necessary to effectively fight the dangerous 
menace of international terrorism while accommodating and 
affirming the central American values of privacy, openness and 
public access.
    Like the Kerner Commission, the Open Society With Security 
Commission would help us to chart a safe course through deep 
waters, without surrendering the very values that lead us to 
insist upon defending our country and our way of life.
    We can do better than blunt and often untested and 
ineffective instruments that crush our liberty. I spent my 
early years at the bar as assistant legal director for the 
national ACLU, and today I have responsibilities for national 
security as a Member of Congress. My experience in both roles 
has reinforced my confidence that American ingenuity is ready 
for the new challenge of winning the struggle against dangerous 
and dogmatic terrorism, while maintaining and enriching the 
free and open democratic society that virtually defines our 
country.
    I welcome today's witnesses and appreciate their testimony. 
I am certain that when we have heard them, all of us will be in 
a better position to find the appropriate solutions. Thank you, 
Madam Chair.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]

[GRAPHIC] [TIFF OMITTED] T5122.004

[GRAPHIC] [TIFF OMITTED] T5122.005

[GRAPHIC] [TIFF OMITTED] T5122.006

    Mrs. Morella. Thank you, Congresswoman Norton. I am going 
to ask our first panel to come forward, please. Before they are 
seated, if you will continue to stand so I can administer the 
oath that is the tradition before this full committee and 
subcommittee.
    [Witnesses sworn.]
    Mrs. Morella. The record will reflect affirmative response.
    We have for our first panel Kathleen Patterson, chairwoman 
of the Committee on the Judiciary, the Council of the District 
of Columbia. Welcome, Ms. Patterson. We also have our police 
chief, Charles Ramsey, chief of the Metropolitan Police 
Department of the District of Columbia. And we have John 
Parsons, associate regional director, National Capital Region 
of the National Park Service. Margret Nedelkoff Kellems, Deputy 
Mayor for Public Safety and Justice of the District of Columbia 
is on her way, and when she arrives, we will swear her in and 
listen to her testimony. You are all veterans of this 
subcommittee and other subcommittees and committees, and so I 
would request that again you keep your comments to about 5 
minutes, and the entire testimony that you submit will be 
included in the record and that will give us a chance to ask 
this first panel questions. So we start off with you, 
Chairwoman Patterson.

 STATEMENTS OF KATHLEEN PATTERSON, CHAIRMAN, COMMITTEE ON THE 
    JUDICIARY, COUNCIL OF THE DISTRICT OF COLUMBIA; MARGRET 
  NEDELKOFF KELLEMS, DEPUTY MAYOR, PUBLIC SAFETY AND JUSTICE, 
    DISTRICT OF COLUMBIA GOVERNMENT; CHARLES RAMSEY, CHIEF, 
METROPOLITAN POLICE DEPARTMENT, DISTRICT OF COLUMBIA; AND JOHN 
PARSONS, ASSOCIATE REGIONAL DIRECTOR, NATIONAL CAPITAL REGION, 
                        NATIONAL SERVICE

    Ms. Patterson. Thank you very much. And good morning. Thank 
you. As you noted, I am council member Kathy Patterson. I 
represent Ward 3 and I serve as chair of the council Committee 
on the Judiciary which has oversight responsibilities for the 
Metropolitan Police Department and criminal justice issues 
generally.
    Deputy Mayor Kellems and Chief Ramsey will, I am sure, give 
you an overview of what is in place today in the District in 
terms of video surveillance employed by the Metropolitan Police 
Department's Synchronized Operations Command Center, and I am 
here to share the perspective of the legislature.
    First, surveillance, including photo surveillance, is a 
longstanding and legitimate tool for law enforcement in the 
District of Columbia, as it is elsewhere. The D.C. Code, for 
example, includes a definition of the term ``law enforcement 
vehicle'' that includes surveillance as a law enforcement 
activity. The more recent Drug-Related Nuisance Abatement Act 
of 1999 permits a court to issue an order to abate a nuisance 
that would include, ``use of videotape surveillance of the 
property and adjacent alleys, sidewalks or parking lots.''
    And our courts have long had the authority to issue 
warrants for electronic surveillance in connection with crimes 
and offenses committed within the District of Columbia.
    What is at issue today, as you both have noted, is whether 
technology itself has blurred or even moved the line between 
what is longstanding and legitimate law enforcement use of 
surveillance and what is an unwarranted and potentially illegal 
violation of privacy rights. Surveillance cameras mounted on 
District buildings now can monitor the movements of individuals 
up to and including creating images that can be scanned into a 
computer and used much as fingerprints are used today.
    It is fair to say that are two distinct and divergent 
reactions to this use of technology: Those who fear a loss of 
privacy and those who see ready advantage in the use of cutting 
edge technology as a crime fighting tool. Many District 
residents have expressed concern about the potential intrusion 
into their lives and space. Guy Gwynne, on behalf of the 
Federation of Citizens Associations of the District of 
Columbia, testified before the Council Committee on the 
Judiciary in February as follows.
    We have Federal and State laws against wiretapping with 
heavy penalties. Obviously we cannot omit having the same sort 
of citizen protection extended to the new technology and its 
largely undefined legal status.
    The Federation recommends legislation to define the legal 
use of surveillance, including protecting privacy and security 
of file tapes, and civil and criminal penalties for anyone who 
abuses a surveillance system.
    Another witness before the Judiciary Committee in February 
was Mara Verheyden-Hilliard, who defends a group of 
demonstrators who have demonstrated in the District of Columbia 
on international economic policy, and notes that the police 
department has been surveilling such demonstrations for quite 
some time, including demonstrations in 2000 and 2001.
    At the same council hearing, the ACLU provided research 
information that I am sure their testimony will provide to this 
committee today in terms of experiences elsewhere.
    I have summarized the viewpoint of the District residents 
who are concerned about surveillance cameras. Others support 
the concept wholeheartedly and want to know what they can do to 
bring cameras into their own neighborhoods. They want 
surveillance technology as a potential deterrent to 
neighborhood crime. I would note that 6 years ago the parents 
of the junior high school my children attended raised their own 
money to install closed circuit television as a security 
measure. Since that time D.C. public schools have installed 
video monitoring systems in 20 elementary schools, 56 junior 
and senior high schools, with broad support from parents and 
residents.
    The school system is moving forward to having such systems 
in place in all of the city's schools, paid for in part with 
Federal Emergency Preparedness funds. The council of the 
District of Columbia adopted emergency legislation earlier this 
month to require that guidelines drafted by the police 
department come to us for review.
    This is clearly an issue calling for extensive and wide-
reaching public discussion, and I anticipate further public 
hearings on the issue. The council as a body has not taken a 
position on the use of surveillance, and I suspect we will, as 
a group, be of the same two minds I am reflecting in this 
testimony, concern with privacy rights and concern with use of 
technology to the maximum extent possible to promote public 
safety.
    Having seen what is available at the police department's 
operations center, it is easy to understand the potential use 
of such surveillance; its use, for example, in a city-wide 
evacuation; its use in responding to a major fire or any other 
large scale emergency.
    The use in protests is another matter. The potential use of 
image scanning is yet a more difficult issue. I would like to 
underscore that it is my responsibility and that of my 
colleagues and Mayor Williams to find the appropriate balance 
between privacy and public safety and to establish that balance 
in public policy.
    I would also respectfully suggest that this committee and 
this Congress also needs to take up the issue, and I am 
delighted to hear Congresswoman Norton mention legislation to 
provide a national debate on this issue. We all have our work 
cut out for us in discussing and debating how and whether we 
use advances in technology, for what purpose and with what 
result.
    Thank you very much and I would be happy to answer 
questions.
    [The prepared statement of Ms. Patterson follows:]

    [GRAPHIC] [TIFF OMITTED] T5122.007
    
    [GRAPHIC] [TIFF OMITTED] T5122.008
    
    [GRAPHIC] [TIFF OMITTED] T5122.009
    
    [GRAPHIC] [TIFF OMITTED] T5122.010
    
    [GRAPHIC] [TIFF OMITTED] T5122.011
    
    Mrs. Morella. Thank you very much, Chairwoman Patterson. 
And you have been concise, and I note that you have 
extrapolated from your submitted written testimony. Pleasure to 
have you with us as always.
    Chief Ramsey. Thank you, sir.
    Mr. Ramsey. Good morning, Madam Chair, Congresswoman 
Norton, members of the subcommittee staff and guests.
    In recent weeks an awful lot has been written about the 
Metropolitan Police Department's use of closed circuit TV or 
CCTV. Much of the reporting has been factual. Regrettably, some 
of it has been less than accurate, and I applaud the 
subcommittee for calling today's hearing, and I thank you for 
the opportunity to inject not only the facts, but also some 
perspective into this discussion.
    Let me state up front that the Metropolitan Police 
Department welcomes public scrutiny for our policies and 
programs. Our joint operations command center remains an open 
book, accessible to news reporters, law enforcement officials 
and political leaders from across the country and around the 
world.
    When the ACLU and others expressed concern about our use of 
CCTV, we invited those groups in for a demonstration and 
meeting. The bottom line: We welcome public debate, but we ask 
that the debate be based on facts, not on conjecture.
    Fact No. 1. The Metropolitan Police Department is using 
CCTV in public spaces only in a limited legal and responsible 
manner. We are not running a 24-hour-a-day, 7-day-a-week video 
monitoring operation. The joint operations command center is 
activated only during major events in our city: Large 
demonstrations, Presidential inaugurations and the like, or 
during periods of heightened alert for terrorism such as the 
weeks immediately following September 11th and during the 
Olympic Games in Salt Lake City.
    During other times, including right now, the center is not 
operational. Our use of CCTV is need-driven, when there are 
specific threats and tangible public safety benefits from 
activating it.
    Another misconception is that our department has a vast 
network of hundreds of cameras at our disposal at any moment. 
We do not. Our current system includes approximately a dozen 
cameras, mounted on buildings in downtown D.C. and focused on 
high-risk targets for terrorism, including the National Mall 
and public spaces outside Union Station, the White House and 
the Capitol.
    During times of heightened alert, the cameras gave us a 
clear real-time view of those potential targets without having 
to dedicate police officers on the ground to this type of 
monitoring activity. Our use of CCTV is legal. The cameras 
monitor only public spaces. There is no audio overhear 
capability in our system. As such, we are not engaging in 
electronic surveillance as defined in law.
    And, finally, the use of CCTV is sensitive to the privacy 
expectations of individuals. When our cameras are operational, 
they generally focus on broad public spaces, not on individuals 
within those areas, and we do not employ any type of face 
recognition technology.
    Fact No. 2. The Metropolitan Police Department is working 
to link our joint operations command center with other public 
agency closed-circuit television systems that monitor public 
spaces, but we have no interest in linking with privately 
operated networks that monitor private space.
    We are particularly interested in linking with the traffic 
cameras operated by transportation agencies in D.C., Maryland 
and Virginia, giving us real-time information on traffic flow 
and bottlenecks during major events or evacuations. We have 
already successfully tested a linkage with the CCTV system 
operated by the D.C. Public Schools. This type of real-time 
visual information would be extremely valuable in responding to 
a Columbine-like incident. And we have begun discussions with 
Metro about linking with its video system in stations and 
platforms.
    In all of these instances, there is one critically 
important safeguard: Access to these systems is controlled by 
the agency that operates the cameras, not by the Metropolitan 
Police Department.
    With the public schools, for example, there are strict 
protocols governing access to their CCTV system. Only the 
schools, not the police department, can activate the system, 
and only the schools can allow us in.
    With respect to privately operated video networks, the 
Metropolitan Police Department is not linking with such systems 
now, nor do we have any plans to do so. We have absolutely no 
interest in peering into the private activities of anyone.
    Fact No. 3. The Metropolitan Police Department is very 
carefully evaluating any expansion into neighborhood-based 
cameras. Currently we are able to access a camera mounted near 
the corner of Wisconsin Avenue and M Street Northwest in the 
Georgetown commercial-entertainment district. That camera was 
purchased by the business and professional community which then 
approached our department about monitoring the public space 
images from a community policing center in Georgetown. Our 
department agreed to this request in part because we want to 
evaluate the operational feasibility and public safety benefits 
of a neighborhood-based camera.
    In recent weeks our department has received several 
inquiries from our community groups requesting CCTV in their 
neighborhoods to help combat robberies, thefts and other street 
crime. We are carefully studying the issues involved, including 
cost, scope and length of operation, resources needed to 
monitor the cameras, and privacy issues.
    With any neighborhood-based installations, there are 
certainly principles that we would follow. First, any cameras 
would have to target a specific crime problem for which CCTV 
technology may be beneficial.
    Second, there would have to be extensive dialog with the 
community about the deployment of cameras and widespread 
community support for their use.
    Fact four. As technology has advanced, our policies and 
procedures have not always kept pace. One of the concerns 
raised by ACLU and others, and shared by myself and other MPD 
leaders, was that policies and procedures governing our use of 
video were not as specific and formalized as they should be. 
Who could activate the command center, who controls the 
cameras, what images would be recorded, if so, how long would 
the tapes be retained?
    These are legitimate issues that need to be clarified. Over 
the last month our department has initiated a fast track 
process to develop now policies in this area. We are currently 
finalizing a new department directive for the Mayor's review 
and approval on the use of CCTV. The development of stronger 
policies and procedures will not only enhance public confidence 
in the system, but also safeguard against any possible abuses.
    And, finally, the Metropolitan Police Department does not 
view CCTV as a panacea in achieving either neighborhood safety 
or homeland security. It is just one more tool that can support 
these efforts. Our intention is not to somehow transform 
policing in our city from a neighborhood-based community 
policing strategy into one that hinges on CCTV.
    This technology, when used properly, can support community 
policing. But I know it will never replace community policing. 
We are in a unique time, in a unique city, a city that faces 
not only serious crime problems, but also the very real threat 
of terrorism. And the Metropolitan Police Department has the 
unique responsibility of protecting not only our residents, but 
also the millions of people who come to our Nation's Capital 
every year to work, to visit, to petition their government.
    Given the enormous challenges we face, I would argue that 
it would be irresponsible for us not to use every legal tool at 
our disposal, including video technology, to help protect our 
city, and ultimately our democracy. We will continue to use 
these tools judiciously, responsibly, openly, and with strong 
public oversight. Thank you.
    [The prepared statement of Mr. Ramsey follows:]

    [GRAPHIC] [TIFF OMITTED] T5122.012
    
    [GRAPHIC] [TIFF OMITTED] T5122.013
    
    [GRAPHIC] [TIFF OMITTED] T5122.014
    
    [GRAPHIC] [TIFF OMITTED] T5122.015
    
    [GRAPHIC] [TIFF OMITTED] T5122.016
    
    [GRAPHIC] [TIFF OMITTED] T5122.017
    
    [GRAPHIC] [TIFF OMITTED] T5122.018
    
    Mrs. Morella. Thank you, Chief Ramsey. John Parsons, the 
Associate Regional Director of the National Capital Region of 
the National Park Service. And then we will give you a chance 
to catch your breath, Ms. Kellems. Thank you.
    Mr. Parsons. Good morning, Madam Chairwoman and Mrs. 
Norton. I appreciate the opportunity to present the views of 
the Department of Interior on the issue of privacy and security 
with respect to the use of electronic surveillance in the 
Nation's Capital.
    The National Park Service is privileged to have the 
responsibility for managing some of our Nation's most treasured 
symbols, including ones in the monumental core of Washington, 
D. C. The monumental core includes the Washington Monument, the 
Lincoln, Jefferson and Franklin Delano Roosevelt Memorials, the 
White House complex, and the Korean War Veterans and Vietnam 
Veterans War Memorials.
    For several years the National Park Service, with the 
guidance of the U.S. Park Police, our urban law enforcement 
arm, has been working on enhancing security in and around the 
heavily visited monumental core. Numerous studies have been 
conducted by the National Park Service and its consultants in 
recent years to assess potential threats to the sites in the 
monumental core, the level of security present and actions that 
should be taken to increase security and thus minimize the risk 
of danger to those who visit these structures.
    One recommendation, which is common to nearly all of the 
studies, is the use of closed-circuit TV, a 1999 study of the 
Booz-Allen-Hamilton which focused on terrorist threats and 
recommended the installation of CCTV in all of the monuments 
and memorials within the monumental core.
    Although the process of planning the CCTV system and 
obtaining funding for it had begun prior to September 11th, the 
installation of this technology became a higher priority after 
the tragic events of that date.
    Installation of CCTV at sites in the monumental core is 
part of a larger effort to increase security at National Park 
Service sites that may be at high risk for terrorist activity 
for which the administration is seeking substantial increases 
in the fiscal year 2003 budget.
    The budget requests include an increase of $12.6 million 
for the U.S. Park Police in Washington, DC, and New York City, 
to fund additional recruitment classes, equipment and overtime.
    It also includes approximately $13 million at the 
Washington Monument, $6.2 million at the Lincoln Memorial and 
$4.7 million at the Jefferson Memorial for vehicle barriers, 
security lighting, and associated improvements. And it includes 
an increase of $6.1 million for increased security at park 
units across the country that are national icons as well, such 
as the Statue of Liberty, Independence Hall, the Arch of 
Western Expansion in St. Louis, and Mt. Rushmore.
    The National Park Service is not currently using any CCTV 
in the monumental core area. However, within the next 6 months 
we plan to have CCTV installed at six sites, the Washington 
Monument, the Lincoln Memorial, the Jefferson Memorial, the 
Vietnam Veterans Memorial, the Korean War Veterans Memorial and 
the FDR Memorial.
    Park Police personnel will continuously monitor these 
cameras as a Park Police facility. The current plan calls for 
the images to be recorded on a continuous loop which will 
record over itself after a yet-to-be determined period of time.
    Recording the images will allow the police to save any that 
are needed for evidentiary purposes. The estimated cost of this 
system is approximately $2 to $3 million. The National Park 
Service plans to use cameras monitored by the U.S. Park Police 
only in public areas where there is no expectation of privacy. 
The images that are recorded would be used only for valid law 
enforcement purposes. At this time the National Park Service is 
planning to install CCTV only in the monumental core area. We 
do not have any plans to use any other type of surveillance 
technology such as facial recognition types of CCTV.
    The U.S. Park Police operate in New York City and San 
Francisco as well as Washington, DC. In New York, the Park 
Police have cameras in place on Liberty Island and in the 
Statue of Liberty that are monitored on a continuous basis with 
a loop recording system. Park Police personnel in the New York 
field office are working on plans to upgrade the entire 
security system in the vicinity of the Statue of Liberty, 
including using digital CCTV.
    In San Francisco, the Park Police have not installed any 
cameras and do not have current plans to do so. However, the 
Golden Gate Bridge Authority utilizes numerous cameras on that 
facility which is directly adjacent to our park.
    In summary, we see CCTV as, used appropriately, as a cost-
effective and nonintrusive way to monitor and protect larger 
areas than would able to be protected with available personnel. 
It is thus an important tool that can help the National Park 
Service safeguard the national treasures under our stewardship 
and the people who visit them.
    Madam Chairwoman, that concludes my testimony. I would be 
happy to answer any questions I may have stimulated. Thank you.
    [The prepared statement of Mr. Parsons follows:]

    [GRAPHIC] [TIFF OMITTED] T5122.019
    
    [GRAPHIC] [TIFF OMITTED] T5122.020
    
    [GRAPHIC] [TIFF OMITTED] T5122.021
    
    [GRAPHIC] [TIFF OMITTED] T5122.022
    
    Mrs. Morella. Thank you, Mr. Parsons. We will get to the 
questions in a few moments, but right now I would like to swear 
in Margret Nedelkoff Kellems, the Deputy Mayor of Public Safety 
and Justice. If you would stand and raise your right hand, Ms. 
Kellems.
    [Witness sworn.]
    Mrs. Morella. Thank you. Affirmative response. And now we 
would love to hear your comments.
    Ms Kellems. Good morning, Chairwoman Morella and 
Congresswoman Norton. Please accept my apologies for being late 
this morning. I am Margret Nedelkoff Kellems, the Deputy Mayor 
for Public Safety and Justice. I thank you for convening this 
hearing on a very high profile and often misunderstood topic of 
the District's use of CCTV as a tool for ensuring the public 
safety.
    I would like to take just a few minutes to outline the 
Mayor's priorities and concerns regarding the use of this 
powerful tool, and what steps we are taking to ensure that our 
practices are judicious and relative to our needs.
    Chief Ramsey has already discussed the specifics of the 
current operation of the system and the policies and procedures 
that MPD is drafting to govern its operation. Mayor Williams 
has consistently identified neighborhood safety and qualify of 
life among his top priorities for his administration.
    Since the events of September 11th, homeland or, in this 
case, hometown security has taken on a new significance, 
particularly in our Nation's Capital. Mayor Williams continues 
to stress that in our pursuit of these goals, we must take 
great pains not to unduly impact the personal privacy interests 
of our citizens, the many people who work in our city, and the 
more than 20 million visitors who visit annually.
    CCTV is not a new law enforcement tool. In fact, law 
enforcement has been using CCTV for years as a means of 
collecting criminal evidence. As you may well imagine, without 
CCTV, MPD would not have nearly the success it has had in 
closing down many of the drug markets that impact our city.
    Of course, what we are talking about today is substantially 
different than using video technology in targeted law 
enforcement efforts, and we appreciate the opportunity to 
discuss this issue in an open forum with you today.
    As CCTV has moved to the forefront as an effective tool in 
ensuring the public safety and protecting against threats to 
our city, Mayor Williams has committed to an open dialog and 
discussion of the benefits and concerns on both sides of the 
issue. We recognize that engaging all of the stakeholders in 
the development of our system, both the security experts and 
those seeking to protect our privacy rights, is the only way we 
will come to an acceptable result that everyone can live with.
    The Mayor has been very clear, and all of the stakeholders 
agree, that the primary objective of this system is to enhance 
public safety during major events, times of heightened alert, 
and actual emergencies, whether or not they are terrorism-
related.
    During these times, law enforcement resources are our most 
valuable commodity in terms of ensuring safety and peace. CCTV 
is tremendously useful in helping us allocate and manage those 
resources effectively. Instead of relying on radio call-in 
information from officers scattered around the event or the 
city, officers whose field of vision is limited to their 
immediate surroundings, CCTV allows us to monitor large and 
distant areas quickly and unobtrusively. That information 
allows us to redirect officers, know where reinforcement is 
needed, and anticipate where we might need other types of 
equipment or response.
    This information assists in protecting the public as well 
as our first responders. In fact, the utility of CCTV at major 
events was proven before September 11th. MPD leased video 
technology equipment during the IMF World Bank demonstrations, 
the inaugural, and even the NBA All Star game to assist in 
resource deployment during those events.
    Based on those successes and in anticipation of the planned 
IMF World Bank meetings and demonstrations scheduled for the 
end of September last year, MPD began the development of a 
small video network capability in its joint operations command 
center.
    Since September 11th, MPD has expanded the video network to 
approximately one dozen cameras focused on areas of potential 
terrorist threats, and has been pursuing linkages with the 
video systems operated by area transportation departments and 
Metro.
    Even while we pursue the use of CCTV in these kinds of 
situations, Mayor Williams has asked MPD to explore the 
possible future uses of technology for controlling crime on a 
daily basis. Of course, that is a big step from where we are 
now, and there are many, many issues that must be considered 
and evaluated before we move forward. Questions regarding 
individual privacy rights as well as important operational 
concerns like the location of the cameras, how they are 
monitored and by whom and from where, are the video feeds tape-
recorded for evidence, and how long and for what purposes are 
those tapes maintained, would have to be worked out in great 
detail, and MPD is already engaged in that process.
    It is important to note that CCTV is not intended to be a 
primary neighborhood policing tool. There is no substitute for 
the security offered by the presence of officers patrolling the 
neighborhoods themselves. That said, we must be responsive to 
the public concerns about the potential uses of CCTV once that 
capacity is in place.
    Several neighborhoods have requested that cameras be 
installed in their communities, hoping that it would have a 
deterrent effect on criminal activity, and perhaps even assist 
in capturing and prosecuting criminals. Certainly there will be 
disagreement among different communities regarding the 
appropriateness of CCTV.
    Bear in mind that at the core of MPD's policing philosophy 
is respect for the interest of its communities. Chief Ramsey's 
Partnerships in Problem Solving model has as its core value 
that police are to work with the communities to solve problems 
together in a way that is acceptable to all involved.
    But the fact remains that in some places, in certain 
communities, stores or at ATM machines and around government 
buildings, for example, video monitoring equipment has helped 
control crime and convict criminals. Mayor Williams has 
instructed us to assess the benefits and burdens of these 
implications to determine whether, on balance, CCTV as a 
community crime fighting tool is effective, even as we move 
increasingly more patrol officers onto the streets to work with 
the our citizens in their neighborhoods.
    Chief Ramsey has explained more fully the times, locations, 
deployment of these cameras, but I want to reemphasize that the 
cameras are an extraordinary tool for extraordinary times. We 
are not monitoring the streets of the District around the clock 
and listening in on people's conversations. We don't even have 
the capability to do that. We are not tracking the movements of 
individuals around town or in private buildings. We don't have 
the capability to do that. Nor are we using video to identify 
individuals such as through biometric imaging. We don't have 
the capability to do that, either. Rather, this is a prudent, 
limited and legal use of video technology in support of our 
goal of ensuring peace and public safety during extraordinary 
times. Mayor Williams believes that we owe it to our residents, 
workers and visitors to be vigilant, innovative and careful in 
how we pursue that goal. Therefore, we monitor a limited number 
of public spaces during special events or at times of 
heightened alert as announced by the Federal Government.
    As Chief Ramsey has explained, MPD is currently finalizing 
its operating policies and procedures for those uses for the 
Mayor's review.
    I thank you for the opportunity to testify. I would be 
happy to answer your questions. And again I apologize for being 
late.
    [The prepared statement of Ms. Kellems follows:]

    [GRAPHIC] [TIFF OMITTED] T5122.023
    
    [GRAPHIC] [TIFF OMITTED] T5122.024
    
    [GRAPHIC] [TIFF OMITTED] T5122.025
    
    [GRAPHIC] [TIFF OMITTED] T5122.026
    
    [GRAPHIC] [TIFF OMITTED] T5122.027
    
    Mrs. Morella. Thank you, Ms. Kellems. I am going to ask 
you, as I start the round of questioning for about 5 minutes 
and we will rotate, to answer as succinctly as you can so we 
can get as much information as we can in a short time.
    First of all, to Councilwoman Patterson. The council has 
approved, I think it was emergency legislation requiring the 
submission of policies and procedures for the system for 
approval. I am curious about when you will be receiving those 
policies and procedures. Even more than that, what standards 
will the council use in evaluating the adequacy of the policy 
and procedures, especially for the public areas that involve 
Federal facilities in the Nation's Capital area.
    And then, connected to that, does the council plan to 
consider any legislation adopting standards for the use of 
stored video information that would be gathered through 
electronic surveillance?
    Ms. Patterson. Thank you, Congresswoman.
    I believe that Chief Ramsey has indicated that the 
department is developing draft guidelines for use of the 
technology. It is those guidelines that the council, by 
emergency legislation, asked to come to the council for active 
review.
    I am not sure what the timeframe is. I know that the chief 
had indicated a 30-day turnaround time in meeting with the ACLU 
during the tour of the facility that he mentioned. In terms of 
what we will then do, I anticipate that we will consider 
whether it is appropriate to do legislation, and I think it may 
well be.
    I would just note that our own citizens are a bit ahead of 
us. As I noted in my testimony, the Federation of Civic 
Associations came up with a list of issues that they would like 
to see addressed in legislation, including civil and criminal 
penalties for abuse, and providing for destruction of tapes not 
being needed for evidence and such. I think these are issues we 
should look at.
    As to standards, I am not familiar with the two sets of 
national standards that I understand have been developed. But I 
am delighted to know that they exist, and we will certainly be 
reviewing the ABA standards and the other standards that have 
already been developed on these issues to see what we may learn 
from those standards.
    Mrs. Morella. I would like to ask, following up on that, 
Chief Ramsey, has the Metropolitan Police Department reviewed 
the standards that were recommended by the American Bar 
Association or the guidelines that are recommended by the 
Security Industry Association and the International Association 
of Chiefs of Police? For instance, both recommend that notice 
be given to subjects that they are under surveillance. That 
ties in with the committee input and what are we doing about 
letting the community know when they are going to be under 
surveillance.
    Mr. Ramsey. Yes, ma'am. In addition to that, we also have 
gotten guidelines that are being used in other countries to try 
to take a look at best practices as it relates to the use of 
CCTV as we draft our own policies. We do have a draft directive 
now. I have seen that. I sent it back for further work. And it 
is being staffed now by other members of the department, 
including our general counsel, and I hope to get that back 
within the next couple of days, and then we will be getting it 
over to the Mayor's Office and to the council.
    So, yes, there is a lot that we are reviewing and looking 
at. Just yesterday the Mayor's Office, the deputy mayor, 
myself, the Mayor, the U.S. Attorney, spoke with officials from 
Sydney, Australia and talked a lot about their policies and 
their guidelines, and they have sent that to us to review as 
well. So we are really reaching out as far as we can to look at 
best practices.
    Mrs. Morella. So you believe that you will have some kind 
of policies that you will be recommending and practices that 
you feel are appropriate that you will be submitting to the 
Mayor and the Council.
    That will include how your community--how you advise the 
community.
    Mr. Ramsey. Yes, ma'am.
    Mrs. Morella. It just seems to me that's a very important 
facet, that people are not taken by surprise and have 
justification.
    Mr. Ramsey. Yes, ma'am.
    Mrs. Morella. Right now I think you said you have 12.
    Mr. Ramsey. Yes, ma'am. We have 12 cameras that are owned 
by us. They are primarily locations we feel we need to keep an 
eye on in the light of terrorist threat is primarily what we're 
concerned about right now. And we also had some problems early 
on, if you recall, about having officers actually assigned to 
certain locations. What this does is act as a force multiplier, 
it allows us to be able to keep an eye on certain areas that we 
feel are very vulnerable but not having actually to put an 
officer there.
    Mrs. Morella. What Federal agencies have allowed you to 
install cameras on your facilities to survey public areas?
    Mr. Ramsey. Well, I'd have to get back to you with a 
complete list. I know one of our cameras is mounted on the 
Department of the Labor, the roof of the Department of Labor 
right next door to us at 300 Indiana Avenue. We can get a very 
good shot of the Capitol from there as well as the Washington 
Monument. Union Station is another location where we have a 
camera mounted. The Old Post Office, that's right, the Old Post 
Office. I do have a list here that I can provide to you.
    Mrs. Morella. I think you've given us a list, Chief Ramsey. 
I'm curious about who in those agencies granted permission, and 
is there any written agreement among the agencies of how the 
cameras would be used and how long it will be stored, anything 
like that?
    Mr. Ramsey. I don't believe there's any written agreement, 
ma'am. And I would have to check with Steve Gaffigan who heads 
my Office of Quality Assurance to find out who specifically 
they spoke with there, but we did get permission prior to 
putting any cameras up.
    Mrs. Morella. We would be interested in that, too, that 
gets into the policies and procedures for it. My time has 
expired. I'll get you on my next round, Mr. Parsons and Ms. 
Kellems. So now I defer to the ranking member for 5 minutes.
    Ms. Norton. Could I ask how these cameras first became 
known to the public?
    Mr. Ramsey. Actually, ma'am, they became known during the 
April 2000 IMF World Bank demonstrations when we first used it.
    Ms. Norton. No, no, no. That's not my question. I'm trying 
to get at something else. I want to know when they became 
known. For example, when Ms. Patterson first knew of these 
cameras. I mean, I would consider her an example of the public 
knowing as opposed to the police department.
    Ms. Patterson. I appreciate that.
    Ms. Norton. How did you come to know about it?
    Ms. Patterson. I think I could--I know the extent of the 
capacity from a tour that I did of the police command center 
fairly recently within the last 6 months, the center that 
became operational right after September 11th.
    Ms. Norton. I'm talking about the surveillance of citizens.
    Ms. Patterson. I became aware of that in the course of 
concerns expressed by some of the demonstrators in 2000 and 
2001. They expressed concerns about the issue. But in terms of 
knowing----
    Ms. Norton. Of course, that's during a demonstration. I'm 
talking about the use of cameras, the use of the network to 
surveil people who are not involved in demonstrations. When did 
the council--when was the council put on notice that this was 
happening?
    Ms. Patterson. I'm not sure we have to date been put on 
notice that precisely what you described is happening. Because 
it's my understanding from the deputy mayor and the chief that 
we are not as a matter of course using the technology apart 
from major events.
    Ms. Norton. Well, that brings me to my next question. The 
chief testifies that we're using this in major events. We're 
going to use it in an emergency. Mr. Parsons testifies that the 
Park Police personnel will continuously monitor the cameras at 
a Park Police facility. These are, of course, cameras that go 
into our command center. Ms. Kellems command, as you may well 
imagine, without video surveillance MPD would not have had 
nearly the success it has had in closing down many of the drug 
markets that impact our city. Mayor Williams has indicated that 
this city should have a system such as the one they have in 
England with--and, of course, that involves 2.5 million 
cameras.
    I'm real confused here about what appears to be the 
difference in Federal policy, city policy. I'm confused about 
the notion of notice. It's one thing to--it's one thing for 
demonstrators to find out they're being surveilled. It's 
another thing for the council to be given a tour. It's another 
thing to have notice and comment so that ordinary members of 
the public can know about what amounts to a major step that it 
seems to me people are at least entitled to know about before, 
not after the cameras are already set up in spots. First I see 
policy differences, and next I want to know why there was no 
notice and comment before this was done.
    And finally, Ms. Kellems, you need to explain what the 
Mayor wants to do, since you represent him, whether we're on 
our way to London and a video on every corner. Please don't 
include 9th and East Capitol by where I live, by the way. Save 
yourself some money on my plot. But go ahead.
    Ms. Kellems. I'll start and I'll let the chief speak to it. 
I, of course, can't speak to the Federal policies about how 
often they're going to be using these and monitoring these.
    Ms. Norton. But you haven't coordinated that with them. You 
heard his testimony today. And so what they do, they can do as 
much as they want to with your system.
    Ms. Kellems. Sorry, it's their system and they're doing 
this independently. We have, on occasion when we've brought up 
our command center for major events, asked if we can access 
their feeds. We do not have this on a normal ongoing basis. We 
don't monitor their system at all. They monitor it separately.
    Ms. Norton. What is the relationship between their system 
and your system?
    Ms. Kellems. They're separate.
    Ms. Norton. No relationship to the command center?
    Ms. Kellems. We have the ability when we want to access 
their system to do that, which we have limited to public events 
and vice versa. We do not have our command center up and 
running and monitoring their feeds except during major events.
    Ms. Norton. Go ahead.
    Ms. Kellems. As for the comment about the drug market, I 
can let the chief explain it more fully. I was speaking in 
generalities that I probably shouldn't have. Those are not 
mounted, permanent CCTV cameras. I was speaking to the use of 
video technology when the police are engaged in an activity 
around a particular drug market. That is a very different type 
of technology, and those feeds are not going into our command 
center. I was just referring to the use of video generally.
    The Mayor's position is that to the extent these are useful 
tools, he would like MPD to give him some advice and do some 
research on how they're used other places, and London is among 
them. As the Chief mentioned, we were speaking with the folks 
from Sydney, Australia last night. Their policy is exactly the 
opposite of ours. They do not use them for major 
demonstrations, they use them in crime hot spots. They claim, 
and they are sending us the information, that has been an 
effective deterrent tool. But we're very much in the 
investigative point. We have not moved into using these on a 
regular ongoing basis or using these in the neighborhoods at 
this point.
    Ms. Norton. Mr. Parsons, on the basis of what evidence have 
you decided that 24/7 around-the-clock surveillance is 
effective?
    Mr. Parsons. We are convinced by studies and consultants 
that these icons of democracy are high targets for terrorist 
activities. And that is the sole reason that have made the 
decision to go forward with planning for these cameras.
    Ms. Norton. My time is up.
    Ms. Patterson. Madam Chair, could I respond to that portion 
of the question that was directed to the council, with your 
leave?
    Mrs. Morella. Not on my time, but yes, go ahead.
    Ms. Patterson. Thank you very much. There is an issue, I 
think, between what is operational practice by law enforcement 
and what is public policy where the legislature, on behalf of 
the public, needs to be involved. And I think you might find a 
distinction of opinion even on this panel on where that line is 
drawn.
    The council, I think it's clear, should not sign off on an 
individual video stakeout of a corner drug market, but the 
council should sign off on what is our policy for maintaining 
videotapes from demonstrations, for example. So I think there 
is a little tension here in terms of what belongs to the 
policymakers and what is day-to-day law enforcement operations.
    Ms. Norton. Of course, there were no policies in place 
whatsoever when this surveillance first began. And there is no 
written policy in place as we speak.
    Ms. Patterson. Right.
    Mrs. Morella. I think that is critically important that we 
bring it all together and find out how one links to the other, 
the nexus. Chief Ramsey, did you want to quickly comment on 
that one?
    Mr. Ramsey. I just think it's a very important point to 
note that to date we haven't been recording anything. And we 
haven't because we don't have the policies in place. So this is 
simply observation at this point in time. They're not being 
recorded. We have the capacity for recording, but we have not 
recorded. And I just think that's a very important point to 
make. Because we understand the sensitivity.
    I don't disagree with council member Patterson that the 
role of the council is to help us and to pass legislation that 
helps set some of these guidelines so that we can safeguard 
against abuse. That's what we're trying to do now with draft 
policies, reviewing all the literature that's out there now 
around how different cities and, indeed, different countries 
handle these very, very sensitive issues. But we have not 
recorded anything nor will we until we get a policy in place.
    Mrs. Morella. Did you record during the World Bank and the 
International Monetary Fund----
    Mr. Ramsey. No, ma'am. No, ma'am.
    Mrs. Morella. Mr. Parsons, on that issue, what does it mean 
as you stated in your testimony that images will be recorded on 
a continuous loop?
    Mr. Parsons. Continuous loop means a device that can be 
recorded over itself after a period of time. Continuous loop 
tape.
    Mrs. Morella. So you are recording.
    Mr. Parsons. Well, at the current time we have no cameras 
installed.
    Mrs. Morella. You are planning to.
    Mr. Parsons. We're still in the planning stage. That is our 
intent, yes.
    Mrs. Morella. What standard do you plan to use to determine 
when the recordings will be erased? I know you told me you 
haven't done it yet, but when you do, what are you going do to 
in terms of how long you're going to keep them and when they 
will be erased?
    Mr. Parsons. This is all part of the planning process. We 
haven't really come to the point of determining that.
    Mrs. Morella. I think it's probably a good thing that we 
have this hearing now, too, because we can kind of prompt you 
to see why you need to work together in partnership to see what 
is--I mean, for instance, as we get back to the Metropolitan 
Police Department, is the Federal Government at the monumental 
core going to link up with the command post, the command center 
in the District of Columbia? Is that something you're thinking 
about?
    Mr. Parsons. That would be our intent, yes.
    Mrs. Morella. That would be the intent, that it would be 
connected. Let me ask you, also, since you've talked to 
Australia and London and other countries, how effective are 
cameras in combating crime or preventing terrorism? What were 
the results of the research that you may have read about or 
undertaken? Do you believe that cameras are a deterrent to 
crime? And if that, in fact, is the case, can we expect that 
there will be a reduction? We've been reading a lot about crime 
in the newspapers recently. Will there be a reduction in crime 
where they are deployed?
    Mr. Ramsey. Well, if I may, certainly cameras are not a 
panacea. They're not going to end all of our problems. But one 
thing that we learned yesterday in our conversation with 
officials from Sydney, 10 percent of their arrests are the 
result of their CCTV system, 10 percent of all their arrests. 
That's a lot. And last year, if my memory serves me correct, 
and I was taking notes yesterday, so hopefully I took good 
notes, but 735 assaults, arrests for assault were made last 
year as a result of these cameras. Again, that is, I think, 
something that we have to pay attention to. Again, these are 
street assaults that are taking place. Again, as far as we're 
concerned--I'm sorry, that was 783 assaults since January 2000. 
So that actually covers a 2-year span. I just found my notes 
from last night. But they did say that 10 percent of the 
arrests that they make come from that system.
    So, again, does it stop all crime? No. Do they have it 
posted? Absolutely, right in the neighborhood, clearly posted. 
This neighborhood uses video CCTV. And we would be looking to 
do the same here, is have it posted.
    Mrs. Morella. You know, jumping into another subject that 
you reminded me of, there are no postings right now in the 
District of Columbia for any of your traffic surveillance 
cameras. I've heard from constituents and District of Columbia 
residents who said I had no idea that this was an area with 
surveillance cameras.
    Mr. Ramsey. Ma'am, if I may, the red light cameras are 
posted. The photo radar right on our Web site, we put the 
locations of where we're going to be working. There is no way 
to put a sign up because those are mobile units. But we do post 
it on our Web site.
    Mrs. Morella. For exceeding the speed limit, some of those?
    Mr. Ramsey. We actually post where we're going to be.
    Mrs. Morella. I guess people aren't looking. I'm going to 
start looking myself now.
    Mr. Ramsey. They aren't looking at the Web site, and in 
some cases they're not looking at their speedometer, either.
    Mrs. Morella. I have people who have contacted us and said, 
you know, I got this $100 ticket and I didn't even know that I 
was exceeding the speed limit. How do I appeal? Do I appeal a 
camera that records there?
    The District's Department of Transportation plans to 
install 100 traffic cameras around the District. I would like 
to direct this question to Deputy Mayor Kellems. Does the 
District plan to link those cameras to the system?
    Ms. Kellems. We'd like to. Those cameras are intended for 
traffic management particularly during an emergency. But we'd 
like to use them at all times to just sort of manage our 
terrible traffic situation here. We're planning to put them at 
major critical intersections and some of the commuter routes in 
and out of the city.
    We think it would be useful to have that if we had, for 
example, an incident like we had on September 11th when we're 
trying to evacuate most of the people from downtown or they're 
self-evacuating, that would be useful information. It's police 
officers and National Guard who are usually deployed to the 
intersections to manage the traffic.
    Mrs. Morella. My time is expired, but, Mr. Parsons, did I 
hear something about 700 new cameras that would be employed in 
the District of Columbia that would include areas where the 
Park Police has jurisdiction?
    Mr. Parsons. We are.
    Mrs. Morella. Like Rock Creek.
    Mr. Parsons. We have been approached by the Department of 
Public Works with a map of the city that shows, as we 
understand it, 700 cameras. Very few of those are on Park 
Service jurisdiction. They would monitor traffic up along Rock 
Creek to the zoo, for instance, Rock Creek and Potomac Parkway. 
We're just in the preliminary stages but my understanding was 
700 cameras.
    Mrs. Morella. Who gives authority? I don't know from whence 
the authority for establishing these cameras comes, different 
authorities? And do they ever come together or is that 
something we're going to be looking at in the near future?
    Mr. Ramsey. Ma'am, as far as law enforcement goes, we do 
come together on a regular basis. In fact, this afternoon 
through the Council of Governments I'm participating in a 
meeting of all the regional law enforcement agencies around our 
regional emergency response plan. And we talk about a variety 
of issues including being able to work together through our 
joint command center. So there is ongoing dialog.
    And I think it's important to maybe clear up one issue as 
well. Our goal is to tap into existing CCTV networks. But in 
order to do that, we just can't just start surfing the area and 
looking for images. We have to have the cooperation of the 
other agencies. The schools are a good example. If they don't 
turn on their switch on their side, we can't get that feed. And 
we would only do it in the event of an emergency inside a 
school.
    Mrs. Morella. So you can tell them to do it, and they 
should report to you.
    Mr. Ramsey. Right. We can ask them and request and they 
would more than likely be making the request of us, quite 
frankly. Those areas during a time of a terrorist threat, our 
agencies would get together and we would provide access to one 
another automatically because of the nature of the threat so 
they could get our feeds, we could get their feeds. But we're 
in a state of heightened alert, and it would make sense to do 
that.
    Mrs. Morella. Would you use a criminal justice coordinating 
council?
    Mr. Ramsey. That is certainly another vehicle that could be 
used. It hasn't yet, but it certainly could be used in that 
fashion. Although many of the agencies that are represented in 
this CJCC aren't necessarily those agencies that would have 
camera networks.
    Mrs. Morella. You know, it would be awfully helpful to this 
subcommittee if you could in some way give us some kind of a 
chart to show how this all works out. Maybe you could all work 
together in doing that.
    Mr. Ramsey. Yes, ma'am.
    Mrs. Morella. I now recognize Ms. Norton.
    Ms. Norton. Thank you very much. The Chair's reference to 
the CJCC is a very important one because even though not all 
the agencies are included, essentially what you will have in 
this city is the beginning of a model for what is going to 
happen elsewhere, and it may become a model for how people 
coordinate.
    Let me make my position clear. I think you are on the horns 
of a dilemma. And I think you are trying your best to sort out 
this situation. In the process, it seems to me, the difficulty 
I have with what the Mayor said about London and the rest of it 
is that he does not show the appropriate balance. It does seem 
to me that every step of the way the second question has to be 
said, how do I limit this, how do I control this. And that is a 
concern I have about the testimony here. I don't hear that part 
of the equation being raised except through the council 
hearings.
    I want to ask who has paid thus far for the D.C. cameras 
and for the link of the D.C. cameras to the Federal facilities, 
the White House and so forth, who has paid for that and out of 
what funds, out of what part of the budget did it come.
    Mr. Ramsey. The funding came from our capital IT as well as 
our capital, I guess, facilities funds, you would call it, has 
funded this thus far, not from our local budget.
    Ms. Norton. Do you expect that the homeland--that--we got a 
rather handsome homeland security amount. Do you expect that 
this future funding will be coming out of homeland security 
funding?
    Ms. Kellems. I think that would be an appropriate use of 
it. In fact, the cameras we were referring to from the 
Department of Transportation were funded through the Federal 
appropriation for emergency preparedness.
    Ms. Norton. Mr. Parsons indicated that essentially what is 
being done here is to surveil public spaces, not individuals. 
Mr. Parsons, since you are surveilling public spaces and not 
individuals--that is somewhat comforting--what exactly are you 
looking for?
    Mr. Parsons. These cameras we are planning for would be 
inside the chamber of the Lincoln Memorial, for instance, and 
also focused on the entry stairways.
    Ms. Norton. This is important. You're inside.
    Mr. Parsons. Correct.
    Ms. Norton. All right.
    Mr. Parsons. And focusing on the approach stairways. It 
will simply be there to anticipate anything that could occur on 
a 24-hour basis.
    Ms. Norton. Mr. Parsons, is the Park Service also working 
on rules and guidelines that would help your personnel know 
how, where, when, etc?
    Mr. Parsons. Certainly as it relates to how long we're 
going to keep this information, yes.
    Ms. Norton. And how long are you going to keep this 
information?
    Mr. Parsons. We're not there yet. But certainly this 
hearing has brought us to the realization that we need 
standards and policies.
    Ms. Norton. You're absolutely right about how long you're 
going to keep the information, where they should be--the reason 
I ask, Mr. Parsons, is you indicated that apparently different 
Federal facilities have different policies. You went down a 
list of park department facilities, some of which--some of whom 
were using, some of whom were not. So there is obviously not 
any uniformity within the Federal Government. Do you intend 
that all Park Service facilities will have the same view of 
these----
    Mr. Parsons. That's our objective, yes.
    Ms. Norton. Do you anticipate that eventually all Park 
Service monuments will have these cameras throughout the United 
States?
    Mr. Parsons. I don't believe so. Only those that have been 
identified as a high threat.
    Ms. Norton. Could I ask about the schools? Excuse me, Chief 
Ramsey had----
    Mr. Ramsey. Ma'am, I just wanted to add one thing from 
MPD's perspective. Right now in our draft policy we're looking 
at 72 hours as a period of time if anything was recorded that 
would be kept unless there was some criminal activity, which 
would then--we would obviously maintain it longer for evidence.
    We are looking at--and yesterday we found that in 
Australia, for example, they keep theirs for 21 days. Why? 
Because they want a period of time if there is an audit or 
something there for people to review the tapes. We fully 
support an audit process, and that's going to be part of our 
directive and something we work with the council on to see to 
it that it takes place in our system as well. I believe that if 
someone calls and says, hey, we want to see the tapes from a 
given day, we just hold those tapes. So I don't know if you 
need to really hold them 21 days or not, but I think we need to 
have a timeframe that is sufficient for review by interested 
parties that want to review it and not keep them too long. So 
that is where we're at as far as our policy goes.
    As far as what we'd be looking at if a truck pulled in 
front of Union Station in an area where trucks aren't supposed 
to be and is left unattended, we can get on the phone and call 
security there and say, hey, you better go check out that truck 
and dispatch a scout car because it could possibly be a truck 
bomb. That's the kind of thing we're looking for, unusual or 
suspicious activity that would necessitate the dispatching of a 
scout car to check it out further.
    Ms. Norton. Almost inevitably then the police department is 
going to be sharing this information with Federal authorities, 
almost inevitably.
    Mr. Ramsey. Absolutely, ma'am, because the Union Station 
example, we wouldn't dispatch a scout car unless there was some 
reason why we couldn't reach the security that is already at 
Union Station. And that's part of your plan with the 
legislation you moved around the cooperative effort between 
agencies. They're part of that agreement. They would respond to 
that request.
    Ms. Norton. My time has passed.
    Mrs. Morella. We both seem to be on the same wave length, 
Congresswoman Norton and myself. Picking on up on what you 
said, Chief Ramsey, who would be the interested parties?
    Mr. Ramsey. That is something that, ma'am, it could be the 
council, it could be ACLU, it could be you, it could be someone 
who wants to take on--we would have to work that out through 
some kind of process where we would agree that some group could 
come in and spot-check and take a look and see what we're 
doing. We're not trying to hide anything here.
    Mrs. Morella. And, actually, I really meant it just the 
opposite. Is there going to be some criteria you will establish 
to gain access? You wouldn't want anyone who was just curious 
to have access to these records.
    Mr. Ramsey. Absolutely, it would have to be.
    Mrs. Morella. You said you keep these records or the camera 
tapes for 72 hours.
    Mr. Ramsey. That's the draft policy right now. We haven't 
been recording. But the time span we're looking at right now or 
at first blush was 72 hours. That's not saying that there was 
any--anything about 72 hours that was--I mean, I've seen some 
policies that 96 hours--yesterday we learned 21 days. We need 
to find something that's reasonable here, work with the 
council, if they find it reasonable and all parties find it 
reasonable, and then put in place a mechanism where if there 
were someone who were the auditor, let's say, to come in and 
periodically review these tapes, there would be sufficient time 
for them to be able to do it and we would simply hold it.
    Mrs. Morella. And to Mr. Parsons and the Park Service, I 
have a feeling that you're going to say this is work in 
progress, because I would ask what standards will you use to 
ensure privacy rights are protected when you install the 
cameras at various facilities?
    Mr. Parsons. I'm afraid I'm going to have to give you the 
same answer.
    Mrs. Morella. So it's good that I pose it for the record, 
too, that you can look into the privacy concerns. But I will 
also pick up on we're going to have in our next panel 
imminently the American Bar Association, and we have already 
talked a little bit about the fact that they have come up with 
some standards. I wonder if you're familiar with them. Do you 
plan to use them when you're installing the security devices at 
the monumental core and the park sites?
    Mr. Parsons. No, we have not studied them at all.
    Mrs. Morella. OK. Great. Then you really have an agenda 
before you. I hope that you will report back, I hope all of you 
will report back to this committee, knowing that what we're 
trying to do is achieve a balance. This was really kind of a 
fact-finding hearing because we think it's exceedingly 
important to know where, why, how long, standards, privacy, 
community input. And so, Ms. Norton, that was really my final 
question.
    Ms. Norton. Just a few more questions, Madam Chair. Chief 
Ramsey, I have staunchly defended your red lights here in the 
Congress and another one of my committees. I was quick to 
indicate that you have saved lives in some substantial numbers, 
that people in the District have clamored for them because 
people were being hit by cars and otherwise injured, and 
because you had limited the system so that, of course, you took 
only a picture of the license plate. There were some valid 
criticisms, the council raised those, the criticisms of who was 
running it, how people got paid. You're attending to that. 
That's the kind of model of what we'd like to see here. Nobody 
expects us to get it all right in the first time. No society 
has used these kinds of cameras before. The real question is 
limits and protections.
    I'd like to ask about the use of the cameras now. I was 
comforted that you used them during the Winter Olympic games, 
you used them during times when there were clear--there was a 
clear need. There has been an attack. And I'm not willing to 
assume there will never be another attack. I wonder if you are 
looking to use the cameras when they are specifically--in a 
specific emergency, whether you are coordinated now with the 
Federal Government's new color-coded alert system, so that we 
all know when an alert--what an alert means?
    Mr. Ramsey. There was, I believe it was a 60-day period for 
comment with this particular system that Governor Ridge laid 
out for us just a week or so ago. We are looking at that. I 
don't have any, you know, cutting edge comments around it, 
quite frankly. I think the more important issue is that we all 
be on the same page.
    Ms. Norton. That's really my only question. When they come 
to an understanding of the notice and comment page--by the way, 
they did it the right way. They did notice and comment so we 
all know about this so you can have a say. At that time you 
will calibrate yours to the Federal.
    Mr. Ramsey. Yes, ma'am.
    Ms. Norton. Let me ask you, Chief, about an example you 
gave that is intentioned with the notion of emergency use only. 
You talked about an emergency at Union Station and you would be 
able to send somebody there. Well, that indicates consistent 
use of the cameras of the kind that the Park Service is doing 
as opposed to use of the cameras only in emergencies. So are 
the cameras, for example, at Union Station, which I take it are 
our cameras, are they going to be on the same 24/7 basis that 
the Park Service cameras are?
    Mr. Ramsey. No, ma'am. I was referring--and I apologize for 
the lack of clarity. I was speaking in terms of when the 
cameras are activated during this period of time, should we 
observe this kind of activity, then we would do that. Otherwise 
the cameras would not be on. Today, for example, the joint 
command center is being used for training for our crime mapping 
which has no camera capability at all, but it's our new crime 
mapping system. We have crime analysts in there learning how to 
use the new system. So it's really a multipurpose room, not 
just for CCTV.
    Ms. Norton. I must ask about the schools. First of all, if 
these are going to be hooked up to schools, does that mean 
we're going to have a camera in every classroom, in every 
auditorium and in every hallway? How could we possibly hook 
these up to schools?
    First let me ask Ms. Patterson, how were they used at your 
daughter's school?
    Ms. Patterson. The closed circuit TV at Alice Deal Junior 
High School that was put in place in 1996 was a security 
measure so that you didn't have to have people walking all over 
the school grounds at any particular time just as you do at any 
kind of closed circuit television security system in a public 
building, to enable one person to sit at a bank of cameras and 
see the full exterior of the school. Since that time the school 
system has moved to that kind of technology, I believe, through 
the junior and senior high schools first and then moving into 
the elementary schools.
    I'm not familiar with what is planned for cameras internal 
to the buildings of the D.C. public schools, although I know 
they do at least have one camera inside the office of the 
school system. So I'm not quite sure what they're intending to 
do on the interior of buildings.
    Ms. Norton. Perhaps Chief Ramsey or Ms. Kellems could tell 
us what your intention is with respect to schools in 
particular.
    Mr. Ramsey. If we were to have a Columbine-like incident, 
we would request the ability to be able to tap into their CCTV 
system.
    Ms. Norton. Their existing system?
    Mr. Ramsey. Their existing system that they have in the 
school. And that would help us know where the gunman was 
located in the school, for example. Where do we need to get 
kids out, what are the evacuation routes that would be best 
taken in light of where the incident is occurring versus where 
students could be safely evacuated. What routes should our cars 
take approaching the scene? If the gunman is in the northeast 
corner of the building, we don't want our cars coming in from 
the northeast because they--the sniper fire. So it would help 
us to be able to isolate the incident a lot easier than having 
our emergency response team go in and having to do a physical 
search to get the information an hour and a half later that 
they could have gotten in moments.
    Ms. Norton. This is an important distinction. If these 
cameras exist, we're talking about halls, we're talking about 
the kind of cameras that are already in use. We're not talking 
about an add-on bunch of cameras in schools.
    One of the dilemmas we face here, I'll say finally, is 
that, to take the Union Station example, if the chief had the 
manpower to put 100 cops there to look, then nobody would say 
that there was anything wrong with that kind of surveillance. 
If what we have instead is a camera that replaces the 100 cops, 
the dilemma we face is, is that any different. We know that 
because it is surveillance there are some differences.
    One of the standards we might use is to try to equate as 
far as possible the kind of surveillance that police ordinarily 
do with the kind of surveillance we're talking about here. If 
anything, the kind of surveillance that my neighborhood 
policeman does is probably more invasive. He probably looks at 
my face, he probably remembers things about me. But we are used 
to him. This is considered a part of ordinary law enforcement. 
What we're going to have to come to grips with is what 
difference it makes when we make this cosmic leap and whether 
we need special safeguards in light of that kind of leap.
    I thank you very much, Madam Chair.
    Mrs. Morella. Thank you, Congresswoman Norton. I want to 
thank you for being here. I do want to ask you to report back 
to us with regard to the standards that you are establishing, 
even as you consider them, your time schedule, policies, and 
public input opportunities and plans. And we would appreciate 
that. We'll also get to you some questions about the red light 
cameras which we didn't feel was the focus of this hearing 
today.
    But I do want to thank all of you for being with us, Ms. 
Patterson, Ms. Kellems, Chief Ramsey, Mr. Parsons, and I'm 
going to ask that there be a 5-minute recess and then we'll get 
to our second panel. Thank you very much.
    [Recess.]
    Mrs. Morella. I'm going to call back into hearing our 
second panel as we resume the subcommittee hearing. Thank you 
again for your patience, too, and for being here. Johnny 
Barnes, executive director of the American Civil Liberties 
Union of the National Capital area, Ronald Goldstock of the 
American Bar Association, and John Woodward, Jr., of RAND. So 
gentlemen, may I ask you to stand and raise your right hand 
also to be sworn in.
    [Witnesses sworn.]
    Mrs. Morella. Thank you. Again, affirmative responses by 
all of the panelists. So, again, if you would proceed about 5 
minutes each with your testimony. And I think you probably 
noted that we alluded to some of the points that you're going 
to be bringing out with the previous panel, which demonstrates 
that your testimony was very, very helpful. So we'll start off 
then with you, Mr. Barnes. Thank you.

STATEMENTS OF JOHNNY BARNES, EXECUTIVE DIRECTOR, AMERICAN CIVIL 
   LIBERTIES UNION, NATIONAL CAPITAL AREA; RONALD GOLDSTOCK, 
     AMERICAN BAR ASSOCIATION; AND JOHN WOODWARD, JR., RAND

    Mr. Barnes. Thank you, Madam Chair. I'm delighted to be 
here in these familiar surroundings, Congresswoman Norton. I 
gave roughly a quarter of a century of my life as a staff 
person to Congress sitting behind those seats in which you all 
sit very often. I can assure you that the perspective from this 
seat is very different.
    You have my testimony I'd like to include in the record in 
its entirety, and I'll summarize.
    Mrs. Morella. Without objection, it will be.
    Mr. Barnes. The ACLU believes the District should abandon 
its plans to establish a British-style system of surveillance 
cameras. There are five compelling reasons that drive our 
belief.
    Surveillance cameras are not effective at fighting crime. 
They don't work well. Surveillance cameras reduce resources for 
placing police into neighborhoods where they are needed. The 
money can be better spent. Surveillance cameras undermine 
individual privacy and are inimical to our way of life. We have 
Times Square in America, not Tienemen Square.
    What are we doing to our icons of democracy? Surveillance 
cameras should not be contemplated without the permission of 
those they impact. Such permission has not been granted by the 
people of D.C. nor by their elected representatives, the D.C. 
Council.
    Surveillance cameras are subject to great abuse. Young and 
minority citizens already face the burden of profiling by the 
police. They should not have to carry the additional weight of 
being singled out, tracked and traced by the camera's eye, 
simply because of their age or the color of their skin, and for 
no other reason. And women should not face the additional 
indignity of leering eyes peering through the lens of a camera. 
Yet that is the sad legacy that is being left where these 
cameras have been tried in other places around the world and 
across the United States.
    I'll briefly expand on these five reasons.
    Cameras do not make us safer. Instead they give the public 
a false sense of security. As you noted, Madam Chair, despite 
2.5 million cameras in England, including the 150,000 cameras 
in London, where the average citizen is filmed 300 times a day, 
the murder rate in that capital city is at record levels, and 
street robbery, the very crime these cameras are supposed to 
prevent, will soar to 50,000 in this year alone.
    Madam Chair, cameras don't catch crooks. Cops do. That is 
why Detroit, after a decade and a half, and other cities, many 
other cities throughout the United States, have abandoned this 
adventure of surveillance cameras. Surveillance cameras require 
an upfront investment in technology and require ongoing 
maintenance. In addition to monitoring the video screens, 
police officers must be pulled off the street and put into the 
video control room. A camera can't stop a mugging or a murder 
in progress on the streets. A police officer can. The use of 
video surveillance cameras goes far beyond a change in the 
style of life as we know it. The use of these cameras will 
change the Constitution as we know it. The terrorists are 
winning.
    No longer will we feel free to sunbathe in our backyards 
because helicopters mounted with cameras can fly over and film 
residential neighborhoods. They are already equipped to do 
that. I believe, Madam Chair, those are additional cameras 
beyond the dozen or so to which Chief Ramsey referred.
    No longer will we be able to have the expectation of 
privacy in a restaurant in Georgetown. Merchants there have 
asked to join this network of cameras. Let me just say, Madam 
Chair, I believe already you're making a difference. You're 
having an impact with this hearing. Because the 
representations, unsworn, not under oath, that have been made 
in recent weeks and months have been inconsistent with some 
made today. And so, as you point out, this hearing and hearings 
that will follow is effective in flushing out the facts and 
getting to the truth. Perhaps because we've had different 
spokespersons, the inconsistency is there. But it is there.
    So powerful are these cameras that they can film a belt 
buckle a mile away. So strong is surveillance technology that 
some allow the viewers to see through clothing. We first 
learned of these cameras when we read in The Wall Street 
Journal on February 13th that the plan for their use, ``go far 
beyond what is in use in other American cities.'' That's Mr. 
Gaffigan, the gentleman who's coordinating the program with the 
metropolitan police department. On that same day, Access 
Communications, the Australian firm that constructed the 
District's new system, told us that this system would be used, 
``in support of every-day policing.'' That's what the firm that 
constructed the system said in a press release.
    General sweeping surveillance of all of us, rather than 
particular specific surveillance of those among us who act on 
terror, who commit crime. Mayor Williams confirmed that in an 
interview on March 8th in The Washington Times, and Chief 
Ramsey, the following day, March 9th repeated the assertion 
that the District would have a British-style system.
    This hearing is very important, and the hearings that will 
follow are very important. We need answers. Is this system 
designed to help prevent terrorism or catch terrorists, or is 
this system to be used for general law enforcement? When will 
the system be on? Who will monitor it? Will the system use 
biometrics? Where, how long, and by whom will recording be 
kept? Will there be laws and regulations governing this system? 
We need a body of laws, a set of regulations, not policy 
guideline.
    Today we do not know all of the answers to those questions. 
Without this and other hearings to explore these issues, 
tomorrow may be too late.
    Finally, the abuse. Law enforcements have stressed this. 
Perhaps if Chief Ramsey or Assistant Chief Gainer monitored the 
system on a daily basis, we would more likely trust them. But 
the muddy history of this Nation has given rise to far too many 
occasions where the courts and our legislatures have enforced 
and imposed controls because law enforcement could not be 
trusted.
    The young black attorney who knew his rights was 
nonetheless stopped and searched on a major highway because the 
police had a written memo, a policy guideline profiling, 
allowing profiling of young black men as probable drug dealers 
when they're in rental cars driving along I-95. D.C. police 
lieutenant followed and sought to blackmail gay men who 
frequented certain establishments, and law enforcement says 
trust us. Imagine the damage to lives and in other situations 
this could have caused if bad apples in law enforcement had the 
additional power of the camera's eye. These cameras will watch 
all of us, not just those bent on crime.
    I close with a bit of history and perhaps an admonition 
that I believe presents interesting comparisons, if not 
striking similarities. In 1790, a Congress seeking security 
from a ban of Pennsylvania militiamen, sacrificed liberty and 
enacted article 1, section 8, clause 17 of the Constitution, 
the District clause. More than 200 years later, because of that 
provision, we still have a British-style system in the Nation's 
Capitol. I know you're sympathetic to that cause, Madam Chair. 
Thank you.
    [The prepared statement of Mr. Barnes follows:]

    [GRAPHIC] [TIFF OMITTED] T5122.029
    
    [GRAPHIC] [TIFF OMITTED] T5122.030
    
    [GRAPHIC] [TIFF OMITTED] T5122.031
    
    [GRAPHIC] [TIFF OMITTED] T5122.032
    
    [GRAPHIC] [TIFF OMITTED] T5122.033
    
    [GRAPHIC] [TIFF OMITTED] T5122.034
    
    [GRAPHIC] [TIFF OMITTED] T5122.035
    
    Mrs. Morella. Thank you very much, Mr. Barnes. Very well 
presented. I am now pleased to recognize Ronald Goldstock of 
the American Bar Association. Thank you for being here, Mr. 
Goldstock.
    Mr. Goldstock. I am the chair of the American Bar 
Association Criminal Justice Section Standards Committee and 
past chair of the section. I am pleased to have the opportunity 
to share with you the fruit of our labors from the ABA Criminal 
Justice Standards Committee. Typically, ABA standards, which 
are ABA policy, have been used extensively by courts and 
practitioners, and we are particularly pleased with its use in 
establishing legislative and regulatory policy.
    The task force on technologically assisted physical 
surveillance [TAPS] that developed the standards we're 
discussing today was, I believe composed of the type of people 
that Ms. Norton suggested be on her proposed national 
commission. They included prosecutors and defense attorneys, 
academics, members of the judiciary, police, privacy advocates, 
and liaisons from a number of interested entities who worked 
very closely with the committee, entities like the FBI, NSA, 
NACDL, major chiefs of police, NLADA, and the Individual Rights 
and Responsibilities Section of the ABA.
    The task force considered a variety of issues--
``illumination and telescopic devices'' from flashlights to 
satellite surveillance, ``detection devices'' from heat 
emanating from homes to x-rays at airports and ``tracking 
devices'' from car beepers to implanted chips.
    We also looked very carefully at video surveillance, and in 
doing so, tried not to limit our analysis to present 
technology. We considered that anything that we could think of 
was possible, and we devised standards with that in mind. The 
standards consider a variety of possibilities.
    If the video surveillance is of private activity or 
conditions, then we would require a warrant. Indeed, we would 
go beyond the Constitutional requirement of a search warrant, 
and require an eavesdropping warrant in such cases.
    If the surveillance were to be long term overt 
surveillance, I think primarily the type that you're talking 
about today, then the decision to do so would have to be made 
by a politically accountable law enforcement officer or another 
relevant politically accountable individual--the Mayor, for 
example.
    If the purpose of that surveillance, long-term overt 
surveillance, were investigative, then there would need to be a 
determination by that politically accountable individual that 
the surveillance would be likely to achieve a law enforcement 
purpose.
    If, on the other hand, the purpose of such surveillance 
were merely deterrence, then it would require that notice be 
given prior to the time that the surveillance was installed, 
and notice be given while the surveillance was operating, and 
that there would be hearings before and during the surveillance 
so that the public would have a chance to comment, make known 
their views and a determination based upon those views.
    Obviously, if it is going to be a deterrent, there would 
have to be notice, otherwise deterrence would not work. If the 
surveillance were short term and covert, then there would need 
to be a determination that a legitimate law enforcement 
objective could be met. In such a case, the decision could be 
made under those circumstances, that is to say, short term, 
covert, by an officer who was not necessarily politically 
accountable because presumably the investigative demands would 
require that it be done immediately, it be done for a short 
period of time, but that it cease upon the attainment of its 
objectives.
    We suggest all of this in the context of general 
principles, that there be no targeting in a discriminatory 
fashion, that there be an attempt to use less intrusive means 
before video surveillance is used, and that transactional data, 
the recordings themselves, be destroyed pursuant to some policy 
that was developed by the law enforcement authorities and the 
political structure, so that there wouldn't be the type of 
abuses that Johnny Barnes suggested. Thank you.
    [The prepared statement of Mr. Goldstock follows:]

    [GRAPHIC] [TIFF OMITTED] T5122.036
    
    [GRAPHIC] [TIFF OMITTED] T5122.037
    
    [GRAPHIC] [TIFF OMITTED] T5122.038
    
    [GRAPHIC] [TIFF OMITTED] T5122.039
    
    [GRAPHIC] [TIFF OMITTED] T5122.040
    
    [GRAPHIC] [TIFF OMITTED] T5122.041
    
    [GRAPHIC] [TIFF OMITTED] T5122.042
    
    Mrs. Morella. Thank you, Mr. Goldstock. And as I mentioned, 
as I introduced this panel, we have alluded to your ABA 
standards in our previous panel.
    Mr. Goldstock. I assume that the standards, either in black 
letter or completely will be made part of the record.
    Mrs. Morella. Indeed they will. Without objection, so 
ordered.
    Mr. John Woodward, Jr., of RAND. Thank you for being with 
us, Mr. Woodward.
    Mr. Woodward. Thank you, Chairwoman Morella, Ranking Member 
Norton, and members of the Subcommittee on the District of 
Columbia. I am honored to participate in these timely hearings 
to discuss electronic surveillance. In the interest of time I 
will focus my testimony on policy options for Congress to 
consider and concerns related to future use of video 
surveillance and other technologies.
    Let's briefly establish the legal status quo by asking does 
the use of this technology violate legally protected privacy 
rights? The District of Columbia's proposed use of video 
cameras to monitor public places does not appear to run afoul 
of the protections afforded by the U.S. Constitution, 
specifically the unreasonable search provision of the fourth 
amendment. Congress, of course, is free to provide greater 
privacy protections than those found in the Constitution.
    Thus we next need to ask what options can Congress pursue 
with respect to government use of surveillance cameras. It 
seems Congress has three broad policy choices: First, prohibit 
the use; second, regulate; third, take no immediate action 
pending further study. Congress could decide that the use of 
surveillance cameras is so dangerous to citizens in society 
that the law should prohibit it. In other words, the law could 
treat surveillance cameras as a form of technological heroin to 
be outlawed.
    The counter argument is that surveillance cameras are not a 
form of technological heroin, because unlike heroin their use 
benefits the individual and the community.
    Specifically, the community must maintain public safety. To 
fulfill this essential duty, law enforcement must monitor 
public places. This age old concept is the rationale for the 
police officer on the beat. To extend the analogy, a 
surveillance camera can be viewed as a form of mechanical 
police officer that watches or records events occurring in 
public places, places in which a person has no reasonable 
expectation of privacy.
    Congress could decide to regulate the use of surveillance 
cameras in many ways. Most notably Congress could enact time, 
place or matter restrictions. For example, Congress could 
restrict government's use of surveillance cameras to the 
duration of a planned protest, time; to monitor only those 
sensitive locations deemed susceptible to attack, place; and to 
prohibit continuous video recording, manner. Or, as an 
alternative, Congress could require prior judicial branch 
approval for the technologies used.
    The third option is for Congress to continue studying this 
issue, remaining poised to act. More and better public policy 
research on the use of the technology, its security and privacy 
implications as well as the effects of regulation is needed.
    One controversial issue that Congress may consider concerns 
what the government does with the data it collects. The 
recording capability can be helpful for criminal investigations 
in the form of post event analysis. For example, it is good 
that we have a videotape of Mohammad Atta at the screening of 
the Portland, ME airport at 5:45 a.m., on September 11, 2001. 
It is bad that the Washington Metro CCTV system did not have a 
recording capability on June 10, 2001, when an assailant 
fatally shot Metropolitan Transit Officer Marlon Morales at the 
U Street Station.
    If surveillance data are recorded, however, then policies 
for data retention, data security and auditing, along with 
penalties for misuse should be considered. Transparency and 
active oversight should help build citizen support.
    Both the public and private sectors are making growing use 
of electronic surveillance technologies, as well as other 
emerging technologies that can gather information about us, 
thereby significantly increasing the potential privacy 
invasions.
    These developments do not necessarily mean that big brother 
is alive and well. Rather, those same technologies can be used 
to protect citizens' rights; for example, with respect to the 
use of video cameras. In 1991, a bystander videotaped the 
arrest of Rodney King. This video allowed many Americans to see 
for themselves what otherwise would not have been seen.
    Currently many police departments have installed cameras on 
squad cars to video certain traffic stops and similar events to 
show that officers satisfy legal requirements. In the near 
future, a citizen wearing a mini camera on her jacket lapel may 
be able to effortlessly video her encounters with law 
enforcement or anyone else and wirelessly transmit the 
information to wherever she desires.
    In conclusion, we should be mindful of technologies that 
may invade our privacy. It is wise to monitor their development 
to forestall potential abuses. We should also, however, ensure 
that perceived or potential threats to our privacy do not blind 
us to the positive uses of video surveillance. Rather than 
acting hastily, it might be better to first try to develop 
thorough answers to questions about the use of surveillance 
cameras, as this hearing has tried to do, to determine the 
cameras' impact on public safety as well as the policy and 
social concerns they raise.
    Thank you for inviting me to share my thoughts with you. I 
am happy to answer any questions you may have.
    [The prepared statement of Mr. Woodward follows:]

    [GRAPHIC] [TIFF OMITTED] T5122.043
    
    [GRAPHIC] [TIFF OMITTED] T5122.044
    
    [GRAPHIC] [TIFF OMITTED] T5122.045
    
    [GRAPHIC] [TIFF OMITTED] T5122.046
    
    [GRAPHIC] [TIFF OMITTED] T5122.047
    
    [GRAPHIC] [TIFF OMITTED] T5122.048
    
    [GRAPHIC] [TIFF OMITTED] T5122.049
    
    [GRAPHIC] [TIFF OMITTED] T5122.050
    
    [GRAPHIC] [TIFF OMITTED] T5122.051
    
    [GRAPHIC] [TIFF OMITTED] T5122.052
    
    Mrs. Morella. Thanks. I want to thank the three of you for 
appearing before us and so succinctly giving us a synopsis of 
your work on this issue.
    I am going to ask some questions that would be directed 
actually to all of you. I am wondering, first of all, have any 
jurisdictions that have installed electronic surveillance 
systems adopted the standards that were recommended by the ABA? 
You are probably the first one to have a response to that, Mr. 
Goldstock.
    Mr. Goldstock. Yes. I don't know of any.
    Mrs. Morella. Anybody know of any? OK. When did you come 
out with them, as a matter of fact? I know it was--2 years was 
your task force, as I recall?
    Mr. Goldstock. In 1999.
    Mrs. Morella. 1999?
    Mr. Goldstock. Yes. They came out toward the end of 1999.
    Mrs. Morella. Great. Well, it is a very interesting that 
nobody knows about any jurisdiction that has utilized that 
work.
    OK. Would you say that the recording of the images and the 
use of recorded images and data bases poses the greatest risk 
to civil liberty? Any of you want to comment on that? I mean, 
is having it in data bases a real threat?
    Mr. Barnes. Absolutely, Madam Chair, because what we will 
be exposed to in that case is this idea of mission creep and 
how far will it go. Will persons who have done other things 
considered to be wrongs in society be excluded because they 
didn't pay a traffic ticket, or they didn't pay a judgment to 
the courts?
    The collection of information and the storing of 
information about individuals is a very dangerous thing. Let me 
just say that I know of an example of a bank that got the 
information, the health information about their patrons and 
those who were suffering from cancer. They called in their 
notes. In other words, you are about to die, give us our money. 
So there are many abuses that flow from the storing--the 
collection and storing of this kind of data.
    Mrs. Morella. Mr. Woodward.
    Mr. Woodward. Chairwoman, if I may followup. Is the 
recording of the images and storing them in a data base the 
greatest risk? I am reluctant to give it an order of magnitude. 
I think it is certainly a risk that deserves the attention of 
Members of Congress.
    I think Mr. Barnes' concern about function creep or mission 
creep is well placed. That is sadly an example that we see from 
history with much use of data that is stored.
    There frequently are other reasons found why that data can 
be used in ways never intended, with the Social Security number 
being a great example. I would also add, I think another 
concern that Members of Congress will face in the future, you 
will have this data. If you decide to store it, and there may 
be very, very good and compelling reasons why you want to store 
the data. For example, it may be very helpful for criminal 
investigation, post-event analysis work. At the same time you 
will see growing technologies that can also collect information 
about people, that might become interlinked in a type of 
surveillance network that I think could be profoundly troubling 
for many of us in society.
    And I would also add that it is not the public sector that 
has this monopoly on the use of these technologies by any 
means. This is also something that you will see extensively in 
the private sector.
    So I think you have rightly called this hearing to focus 
attention on this. I think that this will continue to be an 
issue that will occupy much of your attention as policymakers.
    Mrs. Morella. What do you think about the 72 hours that 
Chief Ramsey mentioned for keeping that material?
    Mr. Woodward. Ma'am, this is in reference to the 
Metropolitan Police Department's draft regulation that would 
call for a 72-hour storage period?
    Mrs. Morella. Right.
    Mr. Woodward. I think that there definitely needs to be a 
time limit as far as how long the data is going to be stored. I 
don't have enough specific knowledge of the situation that 
Chief Ramsey and his colleagues face as to why they came up 
with the 72-hour figure, but it seems to me a good start.
    Mrs. Morella. OK. And you mentioned the--you both mentioned 
mission creep. And you mentioned technology coming on line so 
quickly. I mean, the idea of having a little camera on our 
lapel as we are out in the evening or in certain areas. How do 
we guard against it? What do we do to guard against it? Whoever 
would like to answer that. With so much new technology coming 
on line.
    Mr. Barnes. Yes, Madam Chair. Again, I think we need a body 
of laws and a set of regulations just as we have with respect 
to search warrants, with sanctions and criminal sanctions and 
civil penalties for abuse. And there have been abuses, well 
documented, well reported. I think that is the best way.
    The concern is that this has been a unilateral action by 
the executive branch cutting out the legislature, cutting out 
the courts. And the genius of our system of separation of 
branches is that we do have checks and balances. And that is 
why the courts and the legislature need to be involved. We need 
a body of laws, a set of regulations if we are to have those 
cameras at all.
    Mr. Goldstock. It seems to me that we are talking about a 
number of different things and they have to be answered 
separately. One question is: What government can do, what they 
are allowed to do and whether or not that should be regulated 
by laws, by the Constitution, by policy, by regulations. All is 
a matter that we need to think about.
    The second is government's access to private data bases. 
There are huge data bases that are built up both commercially 
and in other ways. Every time you use an Easy Pass to go 
through a toll or go into a parking lot there are records 
maintained that can be retrieved. We need to know what the 
government ought to be able to obtain and under what 
circumstances private companies or entities can share their 
data with law enforcement. Huge retailers ask you for your 
telephone number when you make a purchase, collect data about 
you, send you packages in the mail. They know where you live. 
All of that exists. Links can be made internally within those 
retail stores. They can be provided to law enforcement either 
on their own design or by request of law enforcement. We ought 
to be thinking about how we are going to regulate that.
    Finally, it seems that there is the possibility of 
violations of law by individuals, whether or not it would be a 
crime, for example, for somebody to broadcast a picture or 
overhear a communication, and that obviously is subject to law. 
Currently eavesdropping laws regulate some of that; and there 
might otherwise be other laws as the capabilities and 
technology increases.
    But I think these are incredibly complex issues that need 
to be studied, and to suggest that there is a simple answer I 
think is probably incorrect.
    Mrs. Morella. OK.
    Mr. Woodward. May I add to that, Chairwoman Morella? With 
respect to mission creep, I think it is important to point out 
that mission creep itself should be really viewed as a neutral 
term. That is, one person's mission creep might be another 
person's worthwhile mission advance.
    And let me try to give you an example. In the testimony I 
heard earlier, it seems to me that the Metropolitan Police 
Department currently proposes using video surveillance for 
special events, special occasions, and the Chief gave examples.
    Well, it might be that over time that instead of just using 
the surveillance on a limited basis, the community might want 
to use it more on a regular basis, normal daylight hours for 
regular standard law enforcement purposes. With the use of 
special cameras that have a night vision capability, you can 
see how that could be expanded to a 24/7 capability, that the 
surveillance could become wider, it could become deeper, etc.
    But I think you might be faced with the question of what do 
you do when the community, be it the local community or at the 
State level, or at the national level, actually approves this 
use, and wants this kind of mission extension, if you will. And 
to give you an example, some of us might think, well, it is 
really silly to use video surveillance to deal with a problem 
we have of people who are smoking illegally in certain public 
areas and we are going to train the surveillance cameras on 
that area to try to identify those people so that we can 
prevent this practice and we can cite the people who are 
committing the infractions.
    But it is difficult if you have a community that goes 
through public debate, engages in the democratic process and 
decides, well, in our community we have a real problem with 
people who want to smoke illegally in public areas and we want 
to stop it. It is difficult. Some might look at that and say, 
well, that is really a silly and unwarranted use of the 
technology. But to others who are exercising their democratic 
rights, they might see it as something they really want to 
stop. So I think it is a very difficult issue.
    Mrs. Morella. Well, the difference is mission creep versus 
mission enhancement. It is all in what you call it. Great.
    Ms. Norton.
    Ms. Norton. Mr. Woodard, when you get into the notion that 
the community can decide that it wants cameras for any purpose, 
there is a consensus, you and I would have a deep disagreement 
with that because there is a Constitution of the United States 
and I can imagine all kinds of things that there is a consensus 
about that would not pass constitutional muster, I think and I 
hope.
    Mr. Barnes, it is clear as you opened your testimony that 
the ACLU is trying not to be a bunch of Luddites that simply 
oppose the cameras wherever they are found, that you recognize 
that the cameras exist, that the cameras for many uses have not 
been struck down by courts yet, that they have been challenged.
    But you say that we should abandon--I am sorry, that the 
District should abandon plans for a British style system, which 
of course is a wholesale system. In light, by the way, of that 
opening in your testimony, let me indicate that your reference 
to profiling suggests to me that we are talking about exactly 
the opposite of profiling. Profiling is honed in on specific 
individuals because of certain characteristics. Here we are 
talking about wholesale profiling.
    Everybody is a target. It is hard to know which is worse, 
for everybody or some of us. But I do see, as I listen to the 
testimony of all three of you, the willingness to try to work 
this through, to come to some--to recognize that it is 
difficult to come to some kind of solution that all could 
embrace.
    Mr. Goldstock, my commission is a little broader. Your 
commission, I want to compliment the ABA. I didn't know of your 
work. I want to compliment the ABA for getting out in front of 
this issue. You seem to have been focused on surveillance 
cameras. The reason mine is broader is that I would hope that 
the Presidential commission obviously wouldn't be involved in 
regulations, would provide general guidance across the board on 
how to meet--how society remains open. It includes things well 
beyond surveillance, because there are so many approaches being 
thrown up.
    Nevertheless, your work, I think it would even be important 
to what it is I would like to have done. I mean, my commission 
is going to have on it not only lawyers and security officials, 
but philosophers and historians and psychologists and 
architects, people who can bring to bear the society so that we 
can have some balance here. And your work will be important, 
it, seems to me, if the commission is ever established.
    I would like to see whether or not there could be any 
agreement among those of you seated at the table on the 
framework for an accepted policy. Mr. Goldstock's testimony 
mentions technique capable of doing what it purports to do, 
trained officers solely for specified objectives, terminated 
when the objective is achieved, notice, deterrence, if there is 
deterrence, notice so that everybody knows what is happening as 
well, maintaining or disposing of those records, written 
instructions, etc.
    I see something approaching the components of an acceptable 
policy. And if I could add to that, the testimony from the city 
about audits so that one could in fact see if in fact what is--
what you said should happen is happening. No data base. Could I 
ask you whether the components I have just named are, as far as 
the three of you are concerned, the framework toward an 
acceptable policy? If not, what should be added? Or is there 
some other approach you would suggest?
    Mr. Goldstock. I would say yes. I don't have any problem 
with it.
    Ms. Norton. I used yours because it laid out some. I added, 
of course, one or two from D.C. and I would like to ask Mr. 
Barnes, who I think very usefully raised these issues in our 
city, whether or not the ABA policy, plus some of the things 
that the District may be doing now that the matter is public, 
could form the framework for an acceptable national policy?
    Mr. Barnes. Well, Congresswoman, as you note, our position 
is that we don't believe the cameras serve any useful purpose. 
But, as you also note, some cameras are in place. Others 
perhaps are contemplated. We would suggest that if there is to 
be some system, that a body of laws in a set of regulations, 
certainly those put forth by the American Bar Association reach 
many of the concerns that we have.
    And we would be happy to work with others in trying to 
shape and mold a body of laws and set of regulations that 
reflect a concern about civil liberties.
    Ms. Norton. Yes. I appreciate that, that response. Mr. 
Woodward.
    Mr. Woodward. Yes, Congresswoman Norton. I think you 
cited--I was trying to keep a checklist, and I think I got most 
of them. I think you mentioned that the legal framework should 
have something like notice, or people should have notice that 
these surveillance cameras are being used in a particular area.
    Ms. Norton. Yes. Two kinds of notice. Notice to let us know 
so that we can comment on whether they should be used and 
notice that they are there.
    Mr. Woodward. Right. I think you need both, basically. I 
think it is very important to iron out your policies or your 
regulations that concern this whole issue of data retention. 
What you can keep in a data base. Similarly with data security, 
an auditing function as well as some kind of oversight 
mechanism.
    I think also you mentioned the idea of penalties for 
misuse. I think it is appropriate for the Congress to look at 
criminal and civil penalties, because you certainly want to 
deter that kind of behavior. I think also the important aspect 
to this is transparency and getting input from the community as 
far as what is the right way to work this process.
    Now, transparency of course is always difficult; how much 
transparency. But I know that I have considered many ideas, and 
I include in my written testimony the idea that the operations 
of these video surveillance cameras could be made known to the 
community by broadcasting some of their activities on a public 
access channel or on a Web site so people could literally see 
that this is what our government is doing in these areas.
    Ms. Norton. Thank you. My time is up. I only have a few 
more questions.
    Mr. Goldstock. Let me just make one thing clear, That the 
ABA policy regarding notice, relates to overt long-term 
surveillance. If the surveillance were being used for an 
investigative purpose, if they knew there was goals to be a 
break-in to a liquor store, obviously you wouldn't be giving 
notice.
    Ms. Norton. That is with a warrant?
    Mr. Goldstock. No. Without a warrant because it was on a 
public street but focused in on a particular area for 
investigative purposes.
    Ms. Norton. Probable cause, and therefore the----
    Mr. Goldstock. No.
    Ms. Norton. The cop is not just there in front of 
somebody's liquor store. What do you mean?
    Mr. Goldstock. What I mean is if the police, for example, 
had information that a group of burglars or robbers were 
breaking into liquor stores, and there weren't a sufficient 
number of cops to be around protecting everybody, you might 
want to set up cameras at a variety of stores in that 
neighborhood aimed directly at the stores. That would not 
require a warrant. But you wouldn't want to give notice because 
the object was investigative rather than deterrent.
    Ms. Norton. Would Mr. Barnes comment on that hypothetical?
    Mr. Barnes. Well, if I may, Congresswoman, I feel obliged 
to say, because I may not get another opportunity, that I have 
worked with both of your staffs and you have excellent staffs.
    I think the hypothetical is a specific situation involving 
a particular circumstance. And the trouble we have with the 
surveillance cameras is that they are general and sweeping. And 
I think that as a standard would also be important, to focus on 
particular situations, specific circumstances not unlike we do 
with Fourth Amendment procedures.
    Ms. Norton. Thank you.
    Mrs. Morella. Thank you, Congresswoman Norton.
    You all heard in the first panel that the Council has 
passed emergency legislation that requires that the 
Metropolitan Police Department submit policies and procedures 
governing the use of the surveillance and asking for approval.
    Do you think that approach is going to be sufficient to 
ensure that there will be some regulation of the system, 
adequate regulation of the system, or is that just a beginning?
    Mr. Barnes. Well, again, Madam Chair, we believe that the 
effort to put some controls and guidelines need to go far 
beyond the police issuing some statements about what it might 
do or will do. It needs to be etched in the law and have the 
force and effect of the law.
    And there needs to be an opportunity for those who are 
victimized by abuses to have access to the courts to enforce 
that law and those regulations. So we need more than policy 
guidelines.
    Mrs. Morella. OK. I know you want to comment on that. But 
maybe under the umbrella question, do I hear the three of you 
saying: We really do think that Congress should at some point 
come in with standards, policies, procedures, auditing devices, 
and sanctions?
    Are you saying there should be legislation that is drafted 
to address what you have presented to us in terms of the 
problems that could be inherent with camera surveillance?
    Mr. Goldstock. I think that the ABA standards could be the 
basis of legislation. I think it would work quite well. I think 
the legislation, as you suggest, is only the first step. In 
addition, there has to be training and transparency and 
auditability and accountability and oversight. I think--and I 
think I am in agreement with Johnny Barnes on this--that in 
fact the real issue here isn't the initial policy, although I 
think that is important. It is consistency. It is in 
demonstrating to the public that the policies are being adhered 
to, that there aren't abuses, that if there are issues that 
come up, they are attended to. That maybe there should be a 
change in legislation or policy if there are consistent abuses 
and that the legislation standards and regulations change to 
meet current needs and current technology.
    I think that is what is critical. This is an ongoing 
process. It is not the beginning, formulating a manual and then 
stopping there. This is a continuing process and I think that 
is what is necessary.
    Mrs. Morella. Should it be Federal, or should it be 
jurisdictional?
    Mr. Goldstock. Well, I think the broad guidelines ought to 
be Federal. I think--the same way it is in electronic 
surveillance. But the electronic surveillance statutes, for 
example, lay down bare minimums, and different jurisdictions 
decided within that, they ought to make changes and be more 
restrictive, and I think that is the same kind of policy that 
would work here as well.
    Mrs. Morella. So kind of bare minimums allowing for some 
flexibilities and customizing for different areas. Mr. 
Woodward.
    Mr. Woodward. Yes, Chairwoman. I think you are at a 
starting point. You could look to Federal regulatory framework 
for at least how you want Federal agencies to use the 
technology. And then you might want to consider, should we also 
include State, local, tribal government use of the technology 
as well.
    One other point I would urge you to consider, and I think 
we have seen it as far as the testimony presented this morning 
before you. It seems to me there is a lot of disagreement as to 
how effective surveillance cameras are in terms of preventing 
crime, detecting crime, investigating crime, and countering 
terrorism. It seems to me that we have heard different 
knowledgeable people offer different perspectives on that 
point.
    It just seems that one area Congress might want to further 
investigate is to try to determine some answers. I realize it 
is very hard to develop the metrics so that you can get answers 
to questions. Well, is this technology really cost effective 
and so on? I do understand that there has been a lot of 
reference made to the United Kingdom's use of surveillance 
cameras by their government agencies. I just wanted to call the 
subcommittee's attention to the fact that the Parliamentary 
Office of Science and Technology, which is a very, very rough 
United Kingdom equivalent of your own Congressional Research 
Service, will be issuing a report in the very near future I 
understand on the topic of surveillance cameras.
    Now, that might have some helpful insights as far as how 
the United Kingdom Parliament perceives the use of the 
technology in that particular case. And also I would just note 
from an international perspective that our neighbors to the 
north in Canada have taken a rather different approach in some 
ways to the use of surveillance cameras to monitor public 
places. Privacy Commissioner Radwanski has issued a letter. 
Although it doesn't have the force of law, he outlines his 
comments and his views of how the technology should and should 
not be used. And apparently there is a disagreement among 
various lawmakers in Canada as far as what the policy will be 
there concerning government use of surveillance cameras for 
public areas.
    Mr. Barnes. May I just quickly add to that, Madam Chair? I 
want to join with Mr. Woodward. I think it would be useful to 
find out whether or not these systems have been effective in 
other places. Again, I know of a report that came out of 
Sydney, Australia, and Chief Ramsey referred to certain data 
from Sydney, Australia in December 2001 that indicated that 
these cameras had helped with one arrest every 160 days.
    That is different than what the Chief told us. So it would 
be, I think, a useful exercise to find out the effectiveness of 
those cameras.
    Mrs. Morella. How long have they had it in London? I don't 
remember----
    Mr. Barnes. In England the system was first put in place 
following the IRA bombing in 1994. Second one in 1995. And then 
when the little 4-year-old was kidnapped it just proliferated. 
And Sydney, Australia, I am not sure how long they have had it.
    Mrs. Morella. Thank you. Ms. Norton.
    Ms. Norton. Thank you, Madam Chair.
    I think it was Mr. Goldstock that mentioned the necessity 
for consistency. I was troubled by even the Interior Department 
testimony. Mr. Parsons sensed that various Park Service 
facilities, that is only one department of the government, were 
essentially on a case-by-case basis.
    We saw what happened in this city when Federal agencies 
proceeded on a case-by-case basis and barricades went up, all 
kinds of rights were violated. Parking meters off--when it came 
to some Federal agencies, not bothered with respect to others, 
violation of District law with respect to barricades.
    The point of consistency does lead me to believe that some 
Federal action guidance of some kind is necessary. The case--we 
work brilliantly in this country on a case-by-case basis. But 
that assumes that there is a law or a basis by which to judge 
the case by case.
    And how we go about that in--if we are the Federal 
Government, it becomes problematic. At the very least it does 
seem with me with respect to Federal facilities there is an 
obligation. We probably should begin there, because we are just 
learning, before we begin to tackle our national 
responsibilities.
    Would you agree that if we were going to proceed in some 
kind of Federal policymaking, that we should proceed first with 
Federal facilities, and do you think that should be a matter of 
law or some kind of executive order or central guidance?
    Mr. Goldstock. Well, it seems to me that the Federal 
policy, whether it be for Federal facilities or even for local, 
be minimum standards. It seems to me that is what can be done 
the best, to have a sense of consistency throughout the country 
and to put into place the kinds of policies and formulations 
that you agree exist after hearings and these studies.
    But it does seem to me that there ought to be a great deal 
of flexibility with respect to individual incidents and the 
questions of whether or not there are particular needs in 
particular jurisdictions, either because law enforcement is not 
broad enough or hasn't enough people that they have to enhance 
their resources. There may be particular problems that exist.
    I should also say that in considering this, it is not clear 
to me that it is always privacy versus law enforcement. 
Sometimes there can be an accommodation between the two. As Mr. 
Woodward suggested, cameras in police cars can have a salutary 
effect on the relationship between police and the public.
    It seems to me cameras that record certain events can clear 
innocent people, when witnesses testify to things that aren't 
accurate and the cameras demonstrate it. Better evidene leads 
to pleas and gets rid of cases fairly early if there is 
documented evidence of the criminal activity that might 
otherwise be fought.
    So it may be possible, for example, not to have any 
conflict where there is an indication that cameras are up, but 
in fact they are not working, they act purely as a deterrent, 
without any compromise of personal privacy. So, you know, I 
think there is room for a wide range variation.
    Ms. Norton. The variation you suggest suggests that if 
somebody doesn't put some limits on what those variations may 
be that they will be all over the map.
    Mr. Goldstock. That is right. I think the limits should be 
there. I think that is what Congress should be doing. It is 
minimum standards and limits. You can operate between certain 
guidelines, and then you have to make determinations based on 
your own particular needs just where you are going to be.
    Ms. Norton. Mr. Barnes.
    Mr. Barnes. Of course, Congresswoman, the Mayor and D.C. 
council have the authority to set standards and limits with 
respect to the Metropolitan Police Department. But we have 
also--we also know that the Secret Service is there, the Park 
Service, U.S. Marshals Service. The Park Service, you know, Mr. 
Parsons testified. So there are areas that are purely within 
the purview of the Congress in terms of legislating and 
providing some guidance to the Federal agencies. But we would 
of course prefer the local government to provide that guidance 
to the Metropolitan Police Department.
    Ms. Norton. At the very least, I think the District should 
proceed, and perhaps they can--what they do can be instructive 
to anything that the Chair and I might agree upon.
    Look, the District has the largest police force per capita 
in the United States; that is even if you don't count the 
Federal police here, has always had a very high crime rate. As 
I speak, you know, there has been a spike in crime in one 
neighborhood, and people are calling for more cops.
    One wonders--I am back to my example--that there is a 
certain point at which 10 cops we have no objection to. But one 
camera that does what 10 cops would do we do. I hate to put 
another law professor hypothetical to you, but at some point 
one has to come to grips with the fact that at least in some of 
the instances we are talking about; for example; Mr. Parsons 
gave a very hard case, because there is no question that you 
could have a park policeman right there inside the Washington 
Monument, they are looking for somebody who would go and put 
some kind of explosive device there, and one way to do it is to 
station yourself a police officer there.
    I will give you another example. I am in discussions with 
the House on their closing the stair--West Front stair, hideous 
thing to do. This is one of the great history vistas. It really 
goes back to L'Enfant. I am in discussions about opening it up 
at least some of the time, and we are getting somewhere on how 
to do it.
    Now, what I have suggested is you could put a police 
officer--it would be a Capitol police officer there for the 
period in which it would be open, and then we could open it at 
least for that period. Now, what am I to do if the Sergeant at 
Arms, with whom I have had the most serious discussions, says, 
well, Congresswoman, we have just got enough police to cover--
it took us a long time, and only September 11th got us enough 
police to cover what we need.
    But I could have a camera there and the West Front could be 
open the way it always was. So I put that hypothetical to you 
and ask you if that is the suggestion that I am offered, should 
I take it, given the outcry that one of the great vistas to the 
Capitol and to our city has been closed because there is a real 
danger. You really could come up these stairs and put a device 
right under a major part of what the Capitol is just by walking 
up the stairs.
    What are you going to do with that one?
    Mr. Barnes. Well, again, Congresswoman, I think that is why 
it is important to really study whether or not these cameras 
make a difference or do they give us a false sense of security. 
I know, for example, they had for over a 22-month period 
cameras were trained in Times Square, concentrated cameras. Ten 
arrests for petty crimes. I know of no evidence where these 
cameras have ferreted out terrorists. No evidence where those 
cameras have really been effective in preventing, deterring, 
helping with major crimes.
    And so the question is, how do we spend our money? And I 
think we can look to Detroit, for example, where after a decade 
and a half decided to spend their money in other ways. We can 
look to Oakland that studied at great length this issue. And 
the Chief of Police finally said, it is not worth it. We can 
look to Newark, White Plains, many places throughout the United 
States. Even Tampa has abandoned, at least for the moment, the 
facial recognition program that it had 2 years ago during the 
Super Bowl.
    So these adventures have been tried and abandoned, and we 
need to know whether they are cost effective. And particularly 
when you measure the cost, dollars and cents--not only the cost 
in terms of dollars and cents, but the costs to our privacy. 
The burdens far outweigh the benefits in our opinion.
    Ms. Norton. I think you raise a good point. And this will 
be my last statement about costs. Of course the cost of 
stationing a cop is there, a very substantial cost as well, and 
having him look at everybody who goes up and down is the kind 
of, ``invasion that I did not have when I walked up the Capitol 
steps before.''
    I am going to ask the Chair, because I think Mr. Barnes has 
raised an important question about effectiveness that we have 
not had answered here. It is true that the Chief said that 10 
percent of those arrested in Sydney, which is a very high 
number, 10 percent of the arrests came from this camera. And he 
mentioned things like assaults and the rest of it.
    I would like to ask the Chair if we might write to Detroit, 
to the locations that have been named so that we might add to 
the record why they abandoned this. For all we know the 
technology might not have been as effective then. But we need 
to know why it was abandoned, because the whole notion of 
effectiveness seems to me to be at the root of this. If we are 
just putting some cameras up there to make ourselves feel good, 
than it does seem to me we ought to take them down right away.
    Thank you very much, Ms. Chairman.
    Mrs. Morella. I think that is a good idea, Ms. Norton. We 
may want to, without overtaxing the GAO, ask them to look at 
how effective these surveillance devices are.
    And I want to thank this panel for the expertise you have 
given us. I know there are a number of other questions we would 
like to get to you.
    As an aside before I just conclude, Mr. Barnes, what is the 
ACLU's position on the use of red light and speed cameras if 
they are tied into a camera surveillance system like the 
District's? Do you have a position on that?
    Mr. Barnes. Well, no, we haven't taken a position. But I 
will say this, Madam Chair. The difference between the red 
light cameras is that they focus on a specific individual who 
allegedly has run a red light in a particular circumstance.
    That is very different from the general focus on all of us 
that this video camera surveillance system would do.
    Mrs. Morella. Very good. We will be calling on you if we do 
draft any legislation to give us your expert response and 
advice as we move along, if that would be acceptable with you. 
We feel that we have some good minds here with adequate 
background, experience, and that you could enhance what we may 
want to do.
    So I do want to thank you all for being here. I am going to 
adjourn this subcommittee. I think it has been an excellent 
hearing. I want to recommend accolades for our staffs. On the 
majority side Russell Smith, the Staff Director. Robert White, 
Shalley Kim, Matthew Batt, Heea Vazirani-Fales.
    On the minority side, John Bouker and Earley Green. Thank 
you all very much.
    [Whereupon, at 11:40 a.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T5122.053

[GRAPHIC] [TIFF OMITTED] T5122.054

[GRAPHIC] [TIFF OMITTED] T5122.055

[GRAPHIC] [TIFF OMITTED] T5122.056

[GRAPHIC] [TIFF OMITTED] T5122.057

[GRAPHIC] [TIFF OMITTED] T5122.058

[GRAPHIC] [TIFF OMITTED] T5122.059

[GRAPHIC] [TIFF OMITTED] T5122.060

[GRAPHIC] [TIFF OMITTED] T5122.061

[GRAPHIC] [TIFF OMITTED] T5122.062

[GRAPHIC] [TIFF OMITTED] T5122.063

[GRAPHIC] [TIFF OMITTED] T5122.064

[GRAPHIC] [TIFF OMITTED] T5122.065

[GRAPHIC] [TIFF OMITTED] T5122.066

[GRAPHIC] [TIFF OMITTED] T5122.067

[GRAPHIC] [TIFF OMITTED] T5122.068

[GRAPHIC] [TIFF OMITTED] T5122.069

[GRAPHIC] [TIFF OMITTED] T5122.070

[GRAPHIC] [TIFF OMITTED] T5122.071

[GRAPHIC] [TIFF OMITTED] T5122.072

[GRAPHIC] [TIFF OMITTED] T5122.073

[GRAPHIC] [TIFF OMITTED] T5122.074

[GRAPHIC] [TIFF OMITTED] T5122.075

[GRAPHIC] [TIFF OMITTED] T5122.076

[GRAPHIC] [TIFF OMITTED] T5122.077

[GRAPHIC] [TIFF OMITTED] T5122.078

[GRAPHIC] [TIFF OMITTED] T5122.079

[GRAPHIC] [TIFF OMITTED] T5122.080

[GRAPHIC] [TIFF OMITTED] T5122.081

[GRAPHIC] [TIFF OMITTED] T5122.082

[GRAPHIC] [TIFF OMITTED] T5122.083

[GRAPHIC] [TIFF OMITTED] T5122.084

[GRAPHIC] [TIFF OMITTED] T5122.085

[GRAPHIC] [TIFF OMITTED] T5122.086

[GRAPHIC] [TIFF OMITTED] T5122.087

[GRAPHIC] [TIFF OMITTED] T5122.088

[GRAPHIC] [TIFF OMITTED] T5122.089

[GRAPHIC] [TIFF OMITTED] T5122.090

[GRAPHIC] [TIFF OMITTED] T5122.091

[GRAPHIC] [TIFF OMITTED] T5122.092

[GRAPHIC] [TIFF OMITTED] T5122.093

[GRAPHIC] [TIFF OMITTED] T5122.094

[GRAPHIC] [TIFF OMITTED] T5122.095

[GRAPHIC] [TIFF OMITTED] T5122.096

[GRAPHIC] [TIFF OMITTED] T5122.097

[GRAPHIC] [TIFF OMITTED] T5122.098

[GRAPHIC] [TIFF OMITTED] T5122.099

[GRAPHIC] [TIFF OMITTED] T5122.100

[GRAPHIC] [TIFF OMITTED] T5122.101

[GRAPHIC] [TIFF OMITTED] T5122.102

[GRAPHIC] [TIFF OMITTED] T5122.103

[GRAPHIC] [TIFF OMITTED] T5122.104

[GRAPHIC] [TIFF OMITTED] T5122.105

[GRAPHIC] [TIFF OMITTED] T5122.106

[GRAPHIC] [TIFF OMITTED] T5122.107

[GRAPHIC] [TIFF OMITTED] T5122.108

[GRAPHIC] [TIFF OMITTED] T5122.109

[GRAPHIC] [TIFF OMITTED] T5122.113

[GRAPHIC] [TIFF OMITTED] T5122.110

[GRAPHIC] [TIFF OMITTED] T5122.111

[GRAPHIC] [TIFF OMITTED] T5122.112


</pre></body></html>
